Appendix A-1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PEYMAN PAKDEL; SIMA CHEGINI,
Plaintiffs-Appellants,

No. 17-17504
D.C. No.
3:17-cv-03638RS

v.
CITY AND COUNTY OF SAN
FRANCISCO; SAN FRANCISCO BOARD
OF SUPERVISORS; SAN FRANCISCO
DEPARTMENT OF PUBLIC WORKS,
Defendants-Appellees.

OPINION

Appeal from the United States District Court
for the Northern District of California
Richard Seeborg, District Judge, Presiding
Argued and Submitted September 13, 2019
San Francisco, California
Filed March 17, 2020
Before: Ronald M. Gould, Carlos T. Bea, and
Michelle T. Friedland, Circuit Judges.
Opinion by Judge Friedland;
Dissent by Judge Bea
SUMMARY*
_________________________________________________
_____________________
* This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

Appendix A-2
Civil Rights
The panel affirmed the district court’s dismissal
of an action brought pursuant to 42 U.S.C. § 1983
against the City and County of San Francisco
asserting an as-applied challenge to the Expedited
Conversion Program, which allows property owners to
convert their tenancy-in-common properties into
condominium properties on the condition that the
owners agree to offer any existing tenants lifetime
leases in units within the converted property.
Plaintiffs purchased an interest in a tenancy-incommon property in 2009 and soon thereafter rented
their portion of the property to a tenant. When the
Expedited Conversion Program began, plaintiffs and
their co-owners applied to convert their property and
plaintiffs agreed to offer their tenant a lifetime lease
as a condition of converting and duly received final
approval from the City to convert. During the process,
plaintiffs had several opportunities to request an
exemption from the lifetime lease requirement but did
not do so. Indeed, toward the end of the process, they
expressly waived their right to seek such an
exemption. But after securing final approval,
plaintiffs requested that the City not require them to
execute and record the lifetime lease or, in the
alternative, that the City compensate them.
Consistent with plaintiffs’ previous lack of objection
and their prior express agreements not to seek an
exemption, the City refused plaintiffs’ requests.
Plaintiffs sued the City, contending under various
theories that the lifetime lease requirement violated
the Takings Clause of the Fifth Amendment. The
district court dismissed plaintiffs’ takings claims
because they had not sought compensation for the

Appendix A-3
alleged taking in state court, which then was required
by Williamson County Regional Planning Commission
v. Hamilton Bank of Johnson City, 473 U.S. 172
(1985).
The panel first acknowledged that the statelitigation requirement has since been eliminated by
Knick v. Township of Scott, 139 S. Ct. 2162 (2019), so
it was no longer a proper basis for dismissal.
Nevertheless, the panel held that because plaintiffs
did not timely ask the City for an exemption from the
lifetime lease requirement, they failed to satisfy
Williamson County’s separate finality requirement,
which survived Knick and thus continued to be a
requirement for bringing regulatory takings claims
such as plaintiffs’ in federal court. The panel stated
that plaintiffs’ belated attempts to request an
exemption were untimely and expressly waived. The
panel therefore affirmed the dismissal of plaintiffs’
takings claim as unripe.
The panel rejected plaintiffs’ argument that they
were exempt from the Williamson County ripeness
requirements because the Expedited Conversion
Program effects a “private” taking, benefitting private
individuals rather than the public. The panel held
that plaintiffs’ characterization of their claim as a
“private” takings claim was foreclosed by Rancho de
Calistoga v. City of Calistoga, 800 F.3d 1083 (9th Cir.
2015). The panel also rejected plaintiffs’ request that
the panel exercise its discretion to excuse plaintiffs
from the finality requirement. The panel concluded
that none of the cases plaintiffs used to argue that
they should be excused from the finality requirement
presented circumstances analogous to those here, and

Appendix A-4
the panel saw no reason to invent a new rationale for
exercising such discretion.
Dissenting, Judge Bea stated that because the
City had reached a final decision which denied
plaintiffs’ request to be excused from executing and
recording a lifetime lease to their unit, he would
vacate the district court’s order dismissing the takings
claim and remand the case for further proceedings.
_________________________________________________
COUNSEL
Jeffrey W. McCoy (argued), James S. Burling, and
Erin E. Wilcox, Pacific Legal Foundation,
Sacramento, California; Paul F. Utrecht, Utrecht &
Lenvin, LLP, San Francisco, California; Thomas W.
Connors, Black McCuskey Souers & Arbaugh, LPA,
Canton, Ohio; for Plaintiffs-Appellants.
Kristen A. Jensen (argued) and Christopher T. Tom,
Deputy City Attorneys; Dennis J. Herrera, City
Attorney; City Attorney’s Office, City and County of
San Francisco, San Francisco, California; for
Defendants-Appellees.
_________________________________________________
OPINION
FRIEDLAND, Circuit Judge:
In the City and County of San Francisco (the
“City”), ownership of multi-unit buildings is often
shared by different people through a form of property
ownership known as a tenancy in common. For years,
those in the City who sought to convert their tenancyin-common property into individually owned

Appendix A-5
condominium property had to apply for permission to
do so through a lottery system. Because conversion
rights were granted through the lottery to only a very
limited number of properties each year, a backlog
developed. To clear that backlog, the City temporarily
suspended the lottery in 2013 and replaced it with the
Expedited Conversion Program (“ECP”), which
allowed a tenancy-in-common property to be
converted into a condominium property on the
condition that its owner agreed to offer any existing
tenants lifetime leases in units within the converted
property.
Peyman Pakdel and Sima Chegini (collectively,
“Plaintiffs”) purchased an interest in a tenancy-incommon property in 2009 and soon thereafter rented
their portion of the property to a tenant. When the
ECP began, Plaintiffs and their co-owners applied to
convert their property. Plaintiffs initially advanced
through the application process without a hitch: They
agreed to offer their tenant a lifetime lease as a
condition of converting and duly received final
approval from the City to convert. During this process,
they had several opportunities to request an
exemption from the lifetime lease requirement but did
not do so. Nevertheless, at the eleventh hour, they
balked. Refusing to execute the lifetime lease they had
offered to their tenant, Plaintiffs instead sued the
City, contending under various theories that the
lifetime lease requirement violates the Takings
Clause of the Fifth Amendment.
The district court dismissed Plaintiffs’ takings
claims because they had not sought compensation for
the alleged taking in state court, which was required
by Williamson County Regional Planning Commission

Appendix A-6
v. Hamilton Bank of Johnson City, 473 U.S. 172
(1985). That state-litigation requirement has since
been eliminated by Knick v. Township of Scott, 139 S.
Ct. 2162 (2019), so it is no longer a proper basis for
dismissal. But because Plaintiffs did not ask the City
for an exemption from the lifetime lease requirement,
they failed to satisfy Williamson County’s separate
finality requirement, which survived Knick and thus
continues to be a requirement for bringing regulatory
takings claims such as Plaintiffs’ in federal court. We
therefore hold that their takings challenge is unripe,
and accordingly affirm.1
I.
A.
Tenancy in common is a form of shared property
ownership in which “each owner has an equal right to
possession and use of the entire property.” Marcia
Rosen & Wendy Sullivan, From Urban Renewal and
Displacement to Economic Inclusion: San Francisco
Affordable Housing Policy 1978-2014, 25 Stan. L. &
Pol’y Rev. 121, 134 n.57 (2014). In San Francisco,
many multi-unit buildings are co-owned as tenancies
in
common.
See
Carolyn
Said,
Strangers
Sharing Mortgages, SFGate (Aug. 25, 2005),
https://www.sfgate.com/realestate/article/Strangerssharing-mortgages-Many-would-be-2645563.php. Coowners of such properties can “make agreements
among themselves[]to give each owner an exclusive
1 Plaintiffs asserted other constitutional claims as well, which
the district court dismissed with prejudice. We address Plaintiffs’
appeal of the dismissal of those claims in a concurrently filed
memorandum disposition. Plaintiffs also asserted state law
claims, which the district court dismissed as procedurally barred.
Plaintiffs have not appealed the dismissal of those claims.

Appendix A-7
right” to occupy or use a particular unit within the
building. Tom v. City & County of San Francisco, 16
Cal. Rptr. 3d 13, 16 (Ct. App. 2004). In a
condominium, by contrast, “each owner has exclusive
ownership and possession of a single unit and common
ownership only for the common areas.” Rosen &
Sullivan, supra, at 134 n.57.
Owners of tenancy-in-common units may hope to
convert those units into condominiums in order to
attain superior title and improved credit
opportunities. Condominium owners in San Francisco
may also derive significant economic value from
selling their properties after conversion because, in
contrast to most tenancy-in-common properties,
condominiums are not subject to the City’s rent
control laws once sold by the converting owner.
In 2009, Plaintiffs purchased a tenancy-incommon interest in a six-unit San Francisco building
(the “Building”), which, by agreement with their coowners, afforded Plaintiffs the right to exclusively use
one unit (the “Unit”). They rented the Unit to a tenant,
intending to move in themselves when they retired.
Plaintiffs also contracted with their co-owners to take
all steps available to convert the Building into
condominiums, which would allow them to gain
independent title to their respective units.
At the time Plaintiffs purchased and rented out
the Unit, the City granted condominium conversion
rights using a lottery system. Under the lottery
system, only 200 units were granted permission to
convert each year, and a considerable backlog of
conversion applications accumulated. In 2013, the
San Francisco Board of Supervisors acted to clear this
backlog by enacting Ordinance 117-13 (the

Appendix A-8
“Ordinance”), which suspended the conversion lottery
until 2024 and replaced it with the ECP. The ECP
allowed property owners to convert their tenancy-incommon properties into condominium properties
subject to an application fee and certain conditions.
Most notably, the ECP required owners who did not
occupy their units themselves and instead rented to
tenants to furnish incumbent tenants with “a written
offer to enter into a lifetime lease” for the converting
unit (the “Lifetime Lease Requirement”). S.F.
Subdivision Code § 1396.4(g)(1).2 Owners who
extended a lifetime lease were entitled to a partial
refund of the ECP application fee. See S.F.
Subdivision Code § 1396.4(h). The Lifetime Lease
Requirement was designed to mitigate an adverse
effect that the City feared would result from the
accelerated
conversion
of
tenancy-in-common
properties into condominium properties under the
ECP—“a large number of tenants [displaced] into a
very expensive rental housing market.” In other
words, the ECP sought to achieve the City’s objective
of temporarily allowing more condominium
conversions while also limiting the displacing effects
of such conversions.
In 2015, Plaintiffs and their fellow Building
owners submitted an ECP application to the San
Francisco Department of Public Works (the
“Department”). Following a public hearing, the
Department approved their tentative conversion map
2 A similar, but narrower, requirement existed under the lottery
system. Converting owners were required to offer lifetime leases
to tenants aged 62 or older and to permanently disabled tenants.
See S.F. Subdivision Code § 1391(c). There were also some limits
on rental rates and increases for units occupied by such tenants.
See id.

Appendix A-9
in January 2016.3 In November 2016, Plaintiffs signed
an agreement with the City committing to offer a
lifetime lease to their tenant, and in fact offered their
tenant such a lease. In that agreement, Plaintiffs
specifically “covenant[ed] and agree[d] that [they]
w[ould] not seek a waiver of the provisions of the
[ECP] applicable to the Lifetime Lease Units” after
that stage of the approval process. In exchange for
offering the lifetime lease, Plaintiffs sought and
received a partial refund of the ECP application fee.
See S.F. Subdivision Code § 1396.4(h). Their final
conversion map was approved in December 2016.
Until that point, Plaintiffs had given the City no
indication that they objected to the Lifetime Lease
Requirement. But on June 9 and again on June 13,
2017—six months after they secured final approval to
convert—Plaintiffs “requested that the City not
require them to execute and record the lifetime lease,”
or “in the alternative to compensate them for
transferring a lifetime lease interest in their
property.” Consistent with Plaintiffs’ previous lack of
objection to the Lifetime Lease Requirement and their
prior express agreement not to seek a waiver of ECP
requirements after November 2016, the City refused
both requests.
B.
Instead of executing and recording the lifetime
lease, Plaintiffs sued the City in federal district court,
asserting an as-applied challenge to the Ordinance
under 42 U.S.C. § 1983. The Complaint alleged that
3 A “tentative map” is “a map made for the purpose of showing
the design of a proposed subdivision.” S.F. Subdivision Code
§ 1309(k).

Appendix A-10
the Lifetime Lease Requirement effects a regulatory
taking of Plaintiffs’ property without just
compensation in violation of the Takings Clause.4
Because the Ordinance contains a clause providing
that the filing of any legal challenge to the Lifetime
Lease Requirement triggers a suspension of the entire
ECP with respect to tenant-occupied units for the
duration of the litigation, this lawsuit has halted the
City’s processing of ECP applications for properties
with tenant-occupied units since June 2017.
The district court granted the City’s motion to
dismiss Plaintiffs’ Complaint because Plaintiffs had
4 Plaintiffs alleged in the alternative that the Lifetime Lease
Requirement effects an exaction, a physical taking, and a private
taking. But because these alternative theories plainly fail as a
matter of law, we analyze Plaintiffs’ takings challenge as a
regulatory takings claim. The Lifetime Lease Requirement is not
an exaction under Nollan v. California Coastal Commission, 483
U.S. 825 (1987), and Dolan v. City of Tigard, 512 U.S. 374 (1994),
because it is “a general requirement imposed through
legislation,” rather than “an individualized” requirement to
grant property rights to the public imposed as a condition for
approving a specific property development. McClung v. City of
Sumner, 548 F.3d 1219, 1227–29 (9th Cir. 2008), abrogated on
other grounds by Koontz v. St. Johns River Water Mgmt. Dist.,
570 U.S. 595 (2013). And the Lifetime Lease Requirement does
not amount to a physical taking because Plaintiffs voluntarily
applied for conversion under the ECP. See Yee v. City of
Escondido, 503 U.S. 519, 527 (1992) (“The government effects a
physical taking only where it requires the landowner to submit
to the physical occupation of his land.”); FCC v. Fla. Power Corp.,
480 U.S. 245, 252 (1987) (law limiting the rent that utility
companies could charge for leasing space on utility poles to cable
television operators was not a physical taking because the utility
companies “voluntarily entered into [the] leases with [the] cable
company tenants”). Finally, as explained below, Plaintiffs’
private takings claim is simply a reframing of their regulatory
takings claim.

Appendix A-11
not sought compensation for the alleged taking of
their property through a state court proceeding.
Plaintiffs timely appealed.
II.
We review de novo grants of motions to dismiss.
Naruto v. Slater, 888 F.3d 418, 421 (9th Cir. 2018).
“We may affirm the district court’s dismissal on any
grounds supported by the record.” Tritz v. U.S. Postal
Serv., 721 F.3d 1133, 1136 (9th Cir. 2013).
III.
“Constitutional challenges to local land use
regulations are not considered by federal courts until
the posture of the challenges makes them ‘ripe’ for
federal adjudication.” S. Pac. Transp. Co. v. City of Los
Angeles, 922 F.2d 498, 502 (9th Cir. 1990). In
Williamson County Regional Planning Commission v.
Hamilton Bank of Johnson City, 473 U.S. 172 (1985),
the Supreme Court articulated two independent
ripeness requirements for regulatory takings claims.
First, under the finality requirement, a takings claim
challenging the application of land-use regulations
was “not ripe until the government entity charged
with implementing the regulations ha[d] reached a
final decision regarding the application of the
regulations to the property at issue.” Id. at 186.
Second, under the state-litigation requirement, a
claim was not ripe if the plaintiff “did not seek
compensation [for the alleged taking] through the
procedures the State ha[d] provided for doing so.” Id.
at 194.
A.
The district court dismissed Plaintiffs’ takings
challenge under the state-litigation requirement.

Appendix A-12
While this appeal was pending, however, the Supreme
Court in Knick v. Township of Scott, 139 S. Ct. 2162
(2019), eliminated that requirement. The Court held
in Knick that “[t]he Fifth Amendment right to full
compensation arises at the time of the taking,
regardless of post-taking remedies that may be
available to the property owner.” Id. at 2170.
Accordingly, a plaintiff need not seek compensation in
state court to ripen a federal takings claim. Id.
In light of Knick, Plaintiffs’ failure to seek just
compensation in state court no longer bars them from
bringing their takings claim in federal court in the
first instance.
B.
The City nevertheless maintains that Plaintiffs’
takings claim is unripe under the first Williamson
County requirement, which prohibits a plaintiff from
filing suit “until the government entity charged with
implementing the regulations has reached a final
decision regarding the application of the regulations
to the property at issue.” 473 U.S. at 186. Knick left
this finality requirement untouched, so that aspect of
Williamson County remains good law. Knick, 139 S.
Ct. at 2169 (“Knick does not question the validity of
this finality requirement, which is not at issue here.”);
see also id. at 2174 (noting that Williamson County
“could have been resolved solely on the . . . ground that
no taking had occurred because the zoning board had
not yet come to a final decision”); Campbell v. United
States, 932 F.3d 1331, 1340 & n.5 (Fed. Cir. 2019)
(recognizing that the finality requirement “remains
good law under Knick”). Plaintiffs do not contend
otherwise; they instead argue that they satisfied the
finality requirement. We agree with the City,

Appendix A-13
however, that Plaintiffs’ takings claim remains unripe
because they never obtained a final decision regarding
the application of the Lifetime Lease Requirement to
their Unit.
1.
Williamson County illuminates the rationale for
and scope of the finality requirement. There, a county
planning commission disapproved a landowner’s
proposed plat for developing a tract of land after
determining that the plat violated various zoning
regulations. 473 U.S. at 181. Local government
entities “had the power to grant certain variances”
from the zoning regulations that would have resolved
many of the commission’s objections to the plat. Id. at
188. Yet the landowner did not seek such variances.
Id. Instead, the landowner brought suit in federal
court alleging that the commission’s application of the
zoning regulations amounted to a taking of the
property. Id. at 182. The Supreme Court held that the
takings claim was not ripe in part because factors
central to determining whether a regulatory taking
occurred—such as “the economic impact of the
challenged action and the extent to which it interferes
with reasonable investment-backed expectations”—
“simply cannot be evaluated until the administrative
agency has arrived at a final, definitive position
regarding how it will apply the regulations at issue to
the particular land in question.” Id. at 191.
Williamson County thus made clear that the finality
requirement “is compelled by the very nature of the
inquiry” required in a takings case. Id. at 190.
The Court has further emphasized that the
finality requirement “responds to the high degree of
discretion characteristically possessed by land-use

Appendix A-14
boards” in granting variances from their general
regulations with respect to individual properties.
Suitum v. Tahoe Reg’l Planning Agency, 520 U.S. 725,
738 (1997). In light of “such flexibility or discretion,”
courts cannot make “a sound judgment about what
use will be allowed” by local land-use authorities
merely by asking whether a development proposal
“facially conform[s] to the terms of the general use
regulations.” Id. at 738–39; see also MacDonald,
Sommer & Frates v. Yolo County, 477 U.S. 340, 348
(1986) (explaining that “[a] court cannot determine
whether a regulation has gone ‘too far’ until it knows
how far the regulation goes,” which requires “a final
and authoritative determination” of how the
regulation will be applied to the property in question).
And “[b]y requiring [a plaintiff] to seek recourse at the
local level” before bringing a federal takings claim, the
finality requirement “enable[s] us to respect
principles of federalism which counsel in favor of
resolving land use disputes locally.” Guatay Christian
Fellowship v. County of San Diego, 670 F.3d 957, 979
(9th Cir. 2011).
Accordingly, under Williamson County, “a final
decision exists when (1) a decision has been made
‘about how a plaintiff’s own land may be used’ and
(2) the local land-use board has exercised its judgment
regarding a particular use of a specific parcel of land,
eliminating the possibility that it may ‘soften[] the
strictures
of
the
general
regulations
[it]
administer[s].’” Adam Bros. Farming, Inc. v. County
of Santa Barbara, 604 F.3d 1142, 1147 (9th Cir. 2010)
(alterations in original) (quoting Suitum, 520 U.S. at
738–39). This rule means that a plaintiff must
“meaningful[ly]” request and be denied a variance
from the challenged regulation before bringing a

Appendix A-15
regulatory takings claim. S. Pac. Transp. Co., 922
F.2d at 503. But “[t]he term ‘variance’ is not definitive
or talismanic; if other types of permits or actions are
available and could provide similar relief, they must
be sought.” Id.; see also, e.g., McMillan v. Goleta Water
Dist., 792 F.2d 1453, 1455, 1457 (9th Cir. 1986)
(holding that a takings claim became ripe when the
plaintiffs’ request for an exemption from a
moratorium on new water connections was denied by
the water district). Plaintiffs who “have foregone an
opportunity to bring their proposal” to use their
property in a manner that diverges from the
regulation alleged to effect a taking “before a
decisionmaking body with broad authority to grant
different forms of relief” therefore “cannot claim to
have obtained a ‘final’ decision.” S. Pac. Transp. Co.,
922 F.2d at 503.
2.
The San Francisco Department of Public Works is
a decisionmaking body with broad authority over
condominium conversions in the City, including
discretion to grant relief from conversion
requirements. See S.F. Subdivision Code § 1312(a)
(vesting discretion in the Director of Public Works to
“authorize exceptions to any of the substantive
requirements set forth in [the Subdivision] Code and
in the Subdivision Regulations” upon “application by
the subdivider”); Cal. Gov’t Code § 66473.5. Plaintiffs,
however, did not ask the Department for an
exemption from the Lifetime Lease Requirement
during the ECP approval process, even though they
concededly had opportunities to do so.
Plaintiffs could have sought an exemption at or
leading up to the January 7, 2016 public hearing held

Appendix A-16
on their conversion application. Before that hearing,
as required by local and state law, Plaintiffs and their
Building co-owners submitted a tentative conversion
map for the City’s approval. See S.F. Subdivision Code
§ 1303(c); Cal. Gov’t Code § 66473.5. The tentative
conversion map included a promise to extend lifetime
leases to existing tenants, without noting any
objection from Plaintiffs to that condition of
conversion.
The City notified Plaintiffs and the public that in
the twenty days before the Department’s proposed
decision on the tentative map, any interested party
could raise objections. See S.F. Subdivision Code
§ 1396.4(c)(2) (providing that “any interested party
may file a written objection to [a conversion]
application” before the Department rules on a
tentative map); Cal. Gov’t Code § 65009(b)(1)
(providing that interested parties may challenge a
map application at “the public hearing or in written
correspondence delivered to the public agency prior to,
or at, the public hearing”). Again, Plaintiffs did not
object to the requirement that their proposed plan
include an offer of a lifetime lease.
It appears that Plaintiffs could also have objected
to the Lifetime Lease Requirement by appealing the
Department’s approval of the tentative map. See S.F.
Subdivision Code § 1314(a) (“The proposed
subdivider[ ] or any interested party may appeal to
the Board [of Supervisors] from a final decision of the
Director [of Public Works] approving, conditionally
approving, or disapproving a Tentative Map.”). The
notice of tentative approval sent to Plaintiffs informed
them of their right to appeal, stating: “This
notification letter is to inform you of your right to

Appendix A-17
appeal this tentative approval. IF YOU WOULD
LIKE TO FILE AN APPEAL OF THE TENTATIVE
APROVAL: You must do so in writing with the Clerk
of the Board of Supervisors within ten (10) days of the
date of this letter.” Plaintiffs, however, did not even
attempt to appeal.
Plaintiffs do not dispute that they gave no
indication of any reservations about the Lifetime
Lease Requirement despite having had these
opportunities to request an exemption. To the
contrary, after allowing each objection period to lapse,
they forged ahead with the conversion process and
entered into a written agreement with the City to
provide a lifetime lease to their tenant, in which they
expressly waived their right to thereafter seek an
exemption from the Lifetime Lease Requirement.
Plaintiffs also applied for and received from the City
a partial refund of the ECP application fee—a refund
only available to property owners who offered lifetime
leases to their tenants. See S.F. Subdivision Code
§ 1396.4(h). It was not until six months after Plaintiffs
had obtained final approval of their conversion map,
and seven months after they had committed to
offering a lifetime lease in exchange for the benefits of
conversion, that they finally asked “the City not [to]
require them to execute and record the lifetime lease.”
The dissent asserts that Plaintiffs’ belated
attempts to request an exemption satisfied the finality
requirement.5 Dissent at 26. But by that point,
5 We note that Plaintiffs themselves did not even advance this
argument until their supplemental reply brief, where it was
mentioned in passing in a footnote. In the same footnote,
Plaintiffs suggested that any request for an exemption would
have been futile because “the City had no discretion to waive the

Appendix A-18
Plaintiffs’ request was untimely and expressly
waived. Takings plaintiffs cannot make an end run
around the finality requirement by sitting on their
hands until every applicable deadline has expired
before lodging a token exemption request that they
know the relevant agency can no longer grant. In
Williamson County, the Supreme Court expressly
rejected the landowner’s position that it could satisfy
the finality requirement by “request[ing] variances
from the Commission . . . after the Commission
approved the proposed plat,” which would have been
too late under the commission’s regulations. 473 U.S.
at 190. That the commission would still theoretically
have had the power to grant a variance after plat
approval was apparently immaterial to the Court’s
analysis. The Court explained that the landowner’s
“refusal to follow the procedures for requesting a
variance” was fatal to its contention that “the
lifetime lease requirement.” They offered no argument or
evidence to substantiate this assertion; they cited only section
1396.4(g) of the Ordinance, which says nothing about depriving
the City of discretion to waive the Lifetime Lease Requirement.
In light of the City’s open-ended solicitation of objections to the
conversion application, we cannot assume that an exemption
request would have been futile.
We have no examples before us of exemptions from the
Lifetime Lease Requirement, but that does not mean exemptions
would have been unavailable. Because Plaintiffs’ lawsuit halted
the ECP for all tenant-occupied properties, the City has not had
any opportunities to consider exemption requests. Moreover,
given that the Lifetime Lease Requirement was animated by
concerns of widespread displacement of tenants, it is possible
that the City would have been more amenable to exemption
requests from individual owners, like Plaintiffs, who were
seeking to convert a single unit that they planned to move into
themselves, than from landlords who sought to convert multiple
properties.

Appendix A-19
Commission’s disapproval of the preliminary plat was
equivalent to a final decision that no variances would
be granted.” Id.
Moreover, we have held in the analogous context
of the then-binding state-litigation requirement that
when a plaintiff missed deadlines or failed to comply
with other requirements for ripening a federal takings
claim, the claim must be dismissed. See Daniel v.
County of Santa Barbara, 288 F.3d 375, 381 (9th Cir.
2002) (“[T]he failure of [the plaintiffs] to seek just
compensation meant that they never created ripe
federal takings claims,” and such failure “cannot now
be cured because the applicable state limitation
periods have long since expired.”); see also Pascoag
Reservoir & Dam, LLC v. Rhode Island, 337 F.3d 87,
96 (1st Cir. 2003) (“[A takings] claimant cannot be
permitted to let the time for seeking a state remedy
pass without doing anything to obtain it and then
proceed in federal court on the basis that no state
remedies are open.” (quoting Gamble v. Eau Claire
County, 5 F.3d 285, 286 (7th Cir. 1993))). Other courts
of appeals have reached similar conclusions. See
Liberty Mut. Ins. Co. v. Brown, 380 F.3d 793, 799 (5th
Cir. 2004) (“By failing to utilize available state
remedies for obtaining compensation, [the plaintiff]
has prevented itself from meeting the second ripeness
requirement of Williamson County. Further, because
the three-year prescriptive period for an inverse
condemnation action [under state law] has now
expired, . . . [the plaintiff] has permanently prevented
the claim from ever ripening.”); Pascoag Reservoir,
337 F.3d at 94 (similar); Vandor, Inc. v. Militello, 301
F.3d 37, 39 (2d Cir. 2002) (similar); Gamble, 5 F.3d at
286 (similar); Harris v. Mo. Conservation Comm’n,
790 F.2d 678, 681 (8th Cir. 1986) (similar).

Appendix A-20
The rationale for such a rule was straightforward:
If a plaintiff could have bypassed the (then-existing)
state-litigation
requirement
and
“obtain[ed]
jurisdiction in the federal courts simply by waiting
until the statute of limitation bars the state
remedies,” the state-litigation requirement would
have been meaningless. Pascoag Reservoir, 337 F.3d
at 95 (quoting Harris, 790 F.2d at 681). This rationale
applies with equal force to the finality requirement.
Allowing a takings claim to proceed when a variance
or exemption was not requested at the proper
junctures would undermine the purposes of the
finality requirement by eliminating local officials’
opportunities to exercise discretion and by presenting
federal courts with ill-defined controversies. See
Guatay Christian Fellowship, 670 F.3d at 977 (“[T]he
final decision requirement . . . is the sole means by
which a court can know precisely how the regulation
at issue would finally be applied to the property” in
question, and “accords with principles of federalism
. . . by encouraging resolution of land use disputes at
the local level.”); see also FERC v. Mississippi, 456
U.S. 742, 767 n.30 (1982) (“[R]egulation of land use is
perhaps the quintessential state activity.”). The
dissent does not explain how the finality requirement
can retain any force if a takings claim brought by a
plaintiff who made no attempt to follow the prescribed
procedures for obtaining a final decision can be
considered ripe. By allowing property owners to
bypass state and local governments’ processes for
making land use decisions, the dissent’s approach
would subvert principles of comity and federalism.
Williamson County prohibits us from going down that
path. See 473 U.S. at 186–91.

Appendix A-21
Plaintiffs protest that requiring them to have
sought an exemption through the prescribed
procedures amounts to imposing an administrative
exhaustion requirement in the guise of a finality
requirement. It is true that, in general, “there is no
requirement that a plaintiff exhaust administrative
remedies before bringing a § 1983 action.” Williamson
County, 473 U.S. at 192. But the Court in Williamson
County nevertheless held that, in the takings context,
a property owner’s failure to seek a variance through
procedures made available by the local land-use
authority meant that the authority had not reached a
final decision. See id. at 193. The Court explained that
the finality requirement would have been satisfied
only by a “conclusive determination” by the local landuse authority “whether it would allow [the property
owner] to develop the [parcel of land] in the manner
[the owner] proposed.” Id. at 193. Here, Plaintiffs
never “proposed” that the City exempt them from the
Lifetime Lease Requirement. They gave the City no
inkling that they wanted an exemption, and therefore
gave it no opportunity to exercise its “flexibility or
discretion” to grant such an exemption. See Suitum,
520 U.S. at 738. At bottom, Plaintiffs’ argument is
that because they ignored the finality requirement for
long enough, it no longer applies to them. As
Williamson County made clear, that is not correct. 473
U.S. at 190 (“[I]n the face of [the property owner’s]
refusal to follow the procedures for requesting a
variance, . . . [the owner] hardly can maintain that the
Commission’s disapproval of the preliminary plat was
equivalent to a final decision that no variances would
be granted.”).
Instead of attempting to ripen their claim during
the proper course, Plaintiffs knowingly waived their

Appendix A-22
right to seek an exemption. We therefore affirm the
dismissal of Plaintiffs’ takings claim as unripe.6
3.
Plaintiffs offer two further arguments in an
attempt to save their takings claim from dismissal,
neither of which is persuasive.
a.
Plaintiffs first argue that, even if their regulatory
takings claim is unripe, their first cause of action—
which alleges that the ECP effects a “private” taking
because it benefits private individuals rather than the
public—is exempt from the Williamson County
ripeness requirements. We disagree.
Even if some category of “private” takings claims
could be exempt from the finality requirement, which
6 The dissent contends that dismissing Plaintiffs’ takings claim
on the ground that they have foregone their opportunity to ripen
it “is a merits ruling rather than one about ripeness.” Dissent at
27. Certainly, the contingent nature of Plaintiffs’ interest in
condominium conversion would tend to undermine their claim
that the conversion effected a taking. See Bowers v. Whitman,
671 F.3d 905, 913 (9th Cir. 2012) (explaining that there is no
taking “if the property interest [at issue] is contingent and
uncertain or the receipt of the interest is . . . discretionary”
(quotation marks omitted)). But as cases like Daniel and Pascoag
Reservoir illustrate, the consequence of the failure to timely ripen
a takings claim is that the claim must be dismissed before its
merits can be evaluated. See Pascoag Reservoir, 337 F.3d at 96
(affirming dismissal of takings claim with prejudice because the
plaintiff’s “failure to bring a timely suit for compensation under
state law has led to the forfeiture of its federal taking claim.”);
Daniel, 288 F.3d at 381 (affirming dismissal of takings claim
with prejudice because “the failure of [the plaintiffs] to seek just
compensation meant that they never created ripe federal takings
claims”).

Appendix A-23
is a question we need not decide,7 Plaintiffs’
characterization of their claim as a “private” takings
claim is foreclosed by Rancho de Calistoga v. City of
Calistoga, 800 F.3d 1083 (9th Cir. 2015). In that case,
a mobile home park (Rancho) alleged that the City of
Calistoga’s mobile home rent-control ordinance, which
limited the magnitude of annual rent increases,
effected “an unconstitutional private taking because
any purported ‘public use’ [was] pretextual.” Id. at
1092. Rancho insisted that the “real purpose” behind
the ordinance was to provide rent subsidies to mobile
home tenants, which violated the Supreme Court’s
admonishment in Kelo v. City of New London, 545 U.S.
469 (2005), that “the sovereign may not take the
property of A for the sole purpose of transferring it to
another private party B.” Rancho de Calistoga, 800
F.3d at 1092–93 (quoting Kelo, 545 U.S. at 477). We
explained, however, that, where no physical seizure
such as that in Kelo had occurred, a private takings
claim alleging “public takings motivated by a ‘private
purpose’” was “simply a renaming of [a] regulatory
takings claim.” Id. at 1092 (citation omitted). That is,
Rancho’s argument was an attempt to “refram[e]” its
challenge to an alleged regulatory taking as a private
takings claim “through an attack on the stated
purposes of the rent-control scheme.” Id. at 1092–93.
Plaintiffs’ private takings theory fails for the
same reason. Like Rancho, they allege that the
7 Plaintiffs cite only precedent holding that “a plaintiff alleging
[a private] taking would not need to seek compensation in state
proceedings before filing a federal takings claim” under the statelitigation requirement of Williamson County. Armendariz v.
Penman, 75 F.3d 1311, 1320 n.5 (9th Cir. 1996) (en banc),
overruled in part on other grounds as recognized in Crown Point
Dev., Inc. v. City of Sun Valley, 506 F.3d 851 (9th Cir. 2007).

Appendix A-24
Lifetime Lease Requirement is “intended to favor a
particular private party with only incidental or
pretextual public benefits.” Also like Rancho,
Plaintiffs argue that “the City has taken their
property for the sole purpose of benefiting another
private party” in violation of Kelo. Where, as here, full
possession of the property has not been seized, such a
challenge is at bottom a regulatory takings claim
subject to Williamson County’s finality requirement—
which, as explained above, Plaintiffs cannot satisfy.
b.
As a last resort, Plaintiffs urge us to excuse them
from the finality requirement in this instance as an
exercise of our discretion. Because Williamson
County’s ripeness requirements are prudential, not
jurisdictional, we do have some discretion whether to
impose them. See Guggenheim v. City of Goleta, 638
F.3d 1111, 1118 (9th Cir. 2010) (en banc). But none of
the circumstances that prompted the exercise of
discretion in the cases Plaintiffs rely on for this
argument are present here.
First, there are no concerns in this case about
different claims proceeding simultaneously in state
and federal court, as in Town of Nags Head v.
Toloczko, 728 F.3d 391 (4th Cir. 2013).8 See id. at 399.
Second, the City here raised the ripeness issue at the
first opportunity, in contrast to the defendant city in
Yamagiwa v. City of Half Moon Bay, 523 F. Supp. 2d
1036 (N.D. Cal. 2007), which acted in bad faith by not
8 Plaintiffs’ non-takings claims will not generate piecemeal
litigation. As discussed in the concurrently filed memorandum
disposition, Plaintiffs’ unreasonable seizure, due process, and
equal protection claims incurably fail as a matter of law on the
merits and so were properly dismissed without leave to amend.

Appendix A-25
asserting ripeness as a defense until more than two
years into the case, following the completion of trial.
See id. at 1108. Third, this case is unlike Guggenheim,
in which we opted not to impose the state-litigation
requirement on the plaintiffs because we concluded
that their takings claim failed on the merits, “so it
would [have been] a waste of the parties’ and the
courts’ resources to bounce the case through more
rounds of litigation.” 638 F.3d at 1118. Plaintiffs here
have urged us not to reach the merits of their takings
claim in the first instance, because “the parties have
[not had] an opportunity to develop a factual record
that would allow this Court to properly analyze” the
claim. The rationale of Guggenheim thus has no
applicability in this case.
In sum, none of the cases Plaintiffs use to argue
that they should be excused from the finality
requirement presented circumstances analogous to
those here, and we see no reason to invent a new
rationale for exercising such discretion.
IV.
For the foregoing reasons, we affirm the district
court’s dismissal of Plaintiffs’ takings claim.
AFFIRMED.

Appendix A-26
BEA, Circuit Judge, dissenting:
The majority is correct about the state of the law
on the “ripeness” of takings claims brought under 42
U.S.C. § 1983, in the wake of Knick. It remains the
case that a plaintiff may not bring suit for an
unconstitutional regulatory taking until “the
government entity charged with implementing the
regulations has reached a final decision regarding the
application of the regulations to the property at issue.”
Williamson County Reg’l Planning Comm’n v.
Hamilton Bank, 473 U.S. 172, 186 (1985); see Knick v.
Township of Scott, Pa., 139 S. Ct. 2162, 2169 (2019).
However, because the City here has indeed reached
such a final decision, I would vacate the district court’s
order dismissing the takings claim and remand the
case for further proceedings.1
Williamson County’s “finality requirement is
concerned with whether the initial decisionmaker has
arrived at a definitive position on the issue that
inflicts an actual, concrete injury,” not whether a
request for “variances” followed the decisionmaker’s
administrative procedures. Williamson County, 473
U.S. at 193. A takings claim is ripe if, at the moment
a suit is filed, it is possible for the court to know “how
far the regulation goes,” that is, whether and to what
degree a regulation or ordinance will be enforced
against the plaintiff. See Palazzolo v. Rhode Island,
533 U.S. 606, 622 (2001) (citation omitted). If the
record is clear that “no variances will be granted,”
then the court knows the scope of the regulation, it
will be enforced as written, and the claim is ripe.
1 I concur in the memorandum disposition filed concurrently that
affirms the district court’s dismissal of the Plaintiffs’ other
constitutional claims.

Appendix A-27
Williamson County, 473 U.S. at 191. Requiring
plaintiffs to adhere to specific administrative
procedures for requesting “variances” from a
regulation, rather than simply evaluating whether a
decision about the application of a regulation is final,
is not mandated by Williamson County and risks
“establish[ing] an exhaustion requirement for § 1983
takings claims,” something the law does not allow. See
Knick, 139 S. Ct. at 2173; see also McGuire v. United
States, 550 F.3d 903, 909–10 (9th Cir. 2008).
The majority’s description of the Plaintiffs as
never having “obtained a final decision regarding the
application of the Lifetime Lease Requirement to their
Unit,” is belied by the facts. Majority Op. at 12. On
June 9 and 13, 2017, the Plaintiffs specifically
requested that the City excuse them from executing
and recording a lifetime lease to their Unit. The City
refused these requests on June 12 and 13, 2017. At
least by June 13, 2017, the City’s position was final.
The Plaintiffs were required to execute and record the
lifetime lease; there would be no variance. The
majority correctly notes that the Plaintiffs made their
requests to the City after several notable events had
occurred: (1) they had missed the official window for
appealing the tentative approval of their subdivision
map; (2) they had entered into a contract with the City
to offer the tenant a lifetime lease; (3) they had offered
the lifetime lease to the tenant; (4) they had received
a refund of $8,000 from the City in exchange for
offering the tenant a lifetime lease; and (5) they had
their final subdivision map approved. But none of this
bears on the question whether the City had reached a
final decision that required the Plaintiffs to comply

Appendix A-28
with the lifetime lease requirement.2 The City’s
rejections of the Plaintiffs’ belated requests were clear
and final. Accordingly, the Plaintiffs’ claim was ripe.
The majority dismisses the City’s rejection of the
Plaintiffs’ requests to be excused from the lifetime
lease requirement and the unavoidable conclusion
that this was a final decision by the City, because the
majority finds the Plaintiffs’ requests were “untimely
and expressly waived.” Majority Op. at 17. But such a
holding is a merits ruling, rather than one about
ripeness. The proper venue for evaluating, in the first
instance, whether the Plaintiffs’ claim may be
defeated by waiver, equitable estoppel, or any other
defense is in the district court on remand. Cf. Dodd v.
Hood River County, 59 F.3d 852, 863 (9th Cir. 1995)
(reversing the district court’s holding that a takings
claim was not ripe but remanding to consider whether
the defense of collateral estoppel applied).
The majority supports its conclusion that the
Plaintiffs lost their ability to ripen their claim because
they did not follow the City’s administrative
procedures and object earlier in the process, by citing
to cases that applied the now-defunct state-litigation
requirement from Williamson County.3 See Majority
This is not to say that these are irrelevant considerations in
evaluating the merits of the Plaintiffs’ claims. But the limited
question here is whether the merits of the claims were ripe for
review in the district court.
2

3 The only Ninth Circuit case the majority references for this
holding is Daniel v. County of Santa Barbara, 288 F.3d 375, 381
(9th Cir. 2002), which it cites for the proposition that if “a
plaintiff missed deadlines or failed to comply with other
requirements for ripening the claim, the claim must be
dismissed.” Majority Op. at 18. The majority is overreading the
case. Daniel, beyond being about the Williamson County state-

Appendix A-29
Op. at 18–19. Though Williamson County mentioned
the failure of the plaintiff to comply with regulations
for requesting variances, see 473 U.S. at 190, it did so
in a context where, unlike here, the plaintiff had
requested no variance, or other relief, whatsoever.
The majority has no direct authority for its holding
litigation requirement and not the finality requirement, did not
involve generic “missed deadlines”; it involved the failure of
plaintiffs to commence an action for compensation within the
applicable state statute of limitations. The difference is
significant. Before Knick, failure to seek compensation through
state proceedings for an alleged taking of property not only
deprived a plaintiff of potential payment, it also meant that no
cognizable constitutional violation had occurred. This was
because a taking was not without just compensation, and thus
the Fifth Amendment was not violated, until the state had denied
a request to compensate a plaintiff for property taken. See
Williamson County, 473 U.S. at 194–95, overruled Knick, 139 S.
Ct. at 2172. Therefore, a failure to file a claim for compensation
within the state limitations period was conclusive that there was
no cognizable constitutional violation.
But even after Knick, a failure to file a takings claim in the
district court within the timeframe of the state’s statute of
limitations bars relief, since claims brought under 42 U.S.C.
§ 1983 are subject to a state’s statute of limitations for personal
injury claims. See Wilson v. Garcia, 471 U.S. 261, 276 (1985).
Seeking a variance from a land-use restriction beyond the
deadline outlined in a city regulation or ordinance does not have
the same consequence. Statutes of limitations, unlike local landuse ordinances, are not “subject to the decision[s] of a regulatory
body invested with great discretion,” to issue waivers or
exemptions. Suitum v. Tahoe Reg’l Planning Agency, 520 U.S.
725, 739 (1997). The only hope for a plaintiff who fails to
commence an action within the period of the state’s statute of
limitations is that a future state legislative act will amend the
statute and extend the limitations period. Whereas a plaintiff
seeking a variance from a land-use ordinance after the deadline
may petition a local board, possessed with great discretion,
simply to consider his untimely request and grant him relief.

Appendix A-30
that a request for a variance or exemption to a landuse ordinance, made and denied after the
administrative deadline for filing objections, cannot
satisfy Williamson County’s requirement that “the
administrative agency has arrived at a final,
definitive position regarding how it will apply the
regulations at issue to the particular land in
question.” Id. at 191.
Moreover, the very City ordinance that allows the
majority to assume that any request to be excused
from the lifetime lease requirement may not have
been futile, despite all practical indications to the
contrary, allows the Director of Public Works to
“authorize exceptions to any of the substantive
requirements” in the City Subdivision Code or
regulations. See S.F. Subdivision Code § 1312(a)
(emphasis added). Surely the same discretion that
would have allowed the Director to excuse the
Plaintiffs from the lifetime lease requirement would
have also allowed the Director to treat the Plaintiffs’
waiver requests as timely. At worst, it seems the
Plaintiffs missed a deadline imposed by an ordinance
that the City, through the Director of Public Works,
had broad authority to waive. The City denied these
requests for variances when they were made and has
confirmed in the proceedings before us that there is
nothing more that the Plaintiffs may now do to be
excused from the lifetime lease requirement. By any
common understanding of the word, the City’s
decision is final.
In sum, the Plaintiffs twice requested to be
excused from the lifetime lease requirement. The City
denied these requests in a final decision, and the
Plaintiffs’ takings claim is ripe for adjudication. The

Appendix A-31
majority ignores the Plaintiffs’ requests for variances
from the lifetime lease requirement because of when
they were made, and elevates adherence to
administrative procedure above the question of
whether the City has reached a final decision. Because
of this error in the majority’s opinion, I respectfully
dissent.

Appendix B-1
Filed 3/17/2020
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PEYMAN PAKDEL;
SIMA CHEGINI,

No. 17-17504

D.C. No.
Plaintiffs-Appellants, 3:17-cv-03638-RS
v.
CITY AND COUNTY OF
SAN FRANCISCO; et al.,

MEMORANDUM*

Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California
Richard Seeborg, District Judge, Presiding
Argued and Submitted September 13, 2019
San Francisco, California
Before: GOULD, BEA, and FRIEDLAND, Circuit
Judges.
Plaintiffs-Appellants (“Plaintiffs”) challenge the
City of San Francisco’s Expedited Conversion
Program (“ECP”), which allows property owners to
____________________
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

Appendix B-2
convert a tenancy-in-common property into a
condominium property on the condition that they offer
any existing tenants lifetime leases in units within the
converted property. Plaintiffs allege that this
“Lifetime Lease Requirement” effectuates an
unreasonable seizure of their property in violation of
the Fourth Amendment and abridges their
constitutional right to privacy in violation of the Due
Process and Equal Protection Clauses of the
Fourteenth Amendment. The district court held that
these contentions failed to state a claim and thus
dismissed them under Federal Rule of Civil Procedure
12(b)(6). Reviewing the district court’s dismissal of
Plaintiffs’ claims de novo, Gant v. County of Los
Angeles, 772 F.3d 608, 614 (9th Cir. 2014), we affirm.1
1. The district court did not err in dismissing
with prejudice Plaintiffs’ Fourth Amendment
unreasonable seizure claim. There is no seizure of
property when an individual “voluntarily transfer[s]
any possessory interest he may have had in the
[property].” Maryland v. Macon, 472 U.S. 463, 469
(1985); see United States v. Sherwin, 539 F.2d 1, 7 (9th
Cir. 1976). Plaintiffs made the choice to offer their
tenant a lifetime lease in exchange for the benefits of
expedited condominium conversion under the ECP.
That a preexisting private agreement between
Plaintiffs and the other co-owners of their building
obligated Plaintiffs to apply for conversion does not
transform this voluntary exchange into a seizure by
the City. The Fourth Amendment reaches only state
action, United States v. Jacobsen, 466 U.S. 109, 113
(1984), and the City had no involvement in the
1 We resolve Plaintiffs’ other claims in a concurrently filed
opinion.

Appendix B-3
formation of this agreement between the tenants in
common, see Blum v. Yaretsky, 457 U.S. 991, 1004
(1982).
2. Nor did the district court err in dismissing
Plaintiffs’ substantive due process and equal
protection claims with prejudice. A regulation
challenged as violating substantive due process or
equal protection is reviewed for a rational basis so
long as it does not implicate a suspect class or impinge
on fundamental rights. See Bowers v. Whitman, 671
F.3d 905, 917 (9th Cir. 2012); Kawaoka v. City of
Arroyo Grande, 17 F.3d 1227, 1234 (9th Cir. 1994).
The Lifetime Lease Requirement does not implicate a
suspect class. And Plaintiffs do not have a
fundamental right under California’s Ellis Act to
exclude people from their home once it has been
converted into a condominium. The Ellis Act prohibits
the government from forcing property owners to offer
accommodations for rent. Cal. Gov’t Code § 7060(a).
But the Ellis Act does not apply to condominiums. See
Valnes v. Santa Monica Rent Control Bd., 270 Cal.
Rptr. 636, 638-39 (Ct. App. 1990). Nor does it apply,
per its express terms, when the government is
enforcing an “agreement by which an owner of
residential real property has agreed to offer the
accommodations for rent or lease in consideration for
a direct financial contribution.” Cal. Gov’t Code
§ 7060.1(a). Here, Plaintiffs acknowledged in a
written agreement with the City that they were
offering their tenant a lifetime lease in consideration
for the financial benefits of expedited condominium
conversion. We thus review the Lifetime Lease
Requirement for a rational basis.

Appendix B-4
The Lifetime Lease Requirement is rationally
related to the legitimate government goal of
preventing existing tenants from being displaced by
widespread condominium conversions under the ECP.
It therefore does not violate substantive due process
or equal protection.
AFFIRMED.

Appendix C-1
Filed 11/20/2017
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
PEYMAN PAKDEL,
et al.,
Plaintiffs,
v.

Case No. 17-cv-03638-RS
ORDER GRANTING
MOTION TO DISMISS

CITY AND COUNTY
OF SAN FRANCISCO,
et al.,
Defendants.

I. INTRODUCTION
Defendant City and County of San Francisco
(“City”) moves to dismiss this action brought by
plaintiffs Peyman Pakdel and Sima Chegini. The City
argues that this Court lacks jurisdiction to hear some
or all of the claims set forth in the complaint, the
complaint fails to state a claim for which relief can be
granted, and some or all of the claims set forth in the
complaint are not ripe for review. For the reasons
explained below, plaintiffs’ non-takings constitutional
claims are dismissed for failure to state a claim and
their state law claims are dismissed as procedurally
barred. Because the remaining takings claims are not
ripe, they are dismissed without prejudice.

Appendix C-2
II. BACKGROUND1
Plaintiffs are residents of Akron, Ohio. In 2009,
they purchased a tenancy-in-common (“TIC”) interest
in a six-unit apartment building in San Francisco.
Their TIC interest gave them ownership rights to a
single unit in the building (“Unit”). Plaintiffs do not
occupy the Unit, but instead rent it out to a residential
tenant. They represent that they do not intend to use
the Unit as their home until after they retire. At the
time plaintiffs signed the TIC agreement, plaintiffs
believed that if they entered and won the
condominium conversion lottery they would be
entitled to raise rents to market level under the Costa
Hawkins Act. They also believed they had the option
to perform an “Owner Move In” eviction under the S.F.
Rent Ordinance, and to quit the rental business under
the Ellis Act. The TIC agreement provides that
plaintiffs agree to take all steps necessary to convert
the building to condominiums and to share the
expenses of such conversion equally with the other cotenants.
In 2013, the City enacted Ordinance 117-13
(“Ordinance”), which put a moratorium on the
condominium conversion lottery and created the
Expedited Conversion Program, San Francisco
Subdivision Code sections 1396.4, 1396.5 (“ECP”). As
a condition of approval under the ECP, an applicant
for conversion must offer a lifetime lease to any
existing non-owning tenants. In 2015, plaintiffs and
their fellow TIC owners sought and obtained
permission under San Francisco law to subdivide
1 The factual background is based on the averments in the
complaint, which must be taken as true for purposes of this
motion.

Appendix C-3
their property from a TIC into six condominiums
under the ECP. As a condition of conversion under the
ECP, plaintiffs submitted to the San Francisco
Department of Public Works lease documents relating
to the Unit and an agreement with the City to offer a
lifetime lease of the Unit to the tenant residing there
at the time of conversion.
The condominium deeds for the building including
the Unit were recorded on March 25, 2017. The
plaintiffs’ tenant in the Unit submitted an executed
lifetime lease to the plaintiffs on or about May 5, 2017.
On June 9, 2017, and June 13, 2017, plaintiffs
requested that the City not require them to execute
and record the lifetime lease under the Ordinance, or
in the alternative to compensate them for transferring
a lifetime lease interest in their property. The City
refused both requests and indicated that failure to
execute the lifetime lease would be a violation of the
Ordinance and subject plaintiffs to enforcement
action. Plaintiffs have not executed and recorded the
lifetime lease but intend to do so by the Ordinance’s
March 2019 deadline unless the lifetime lease
requirement is enjoined by this Court. On June 26,
2017, plaintiffs filed this action seeking that remedy.
III. LEGAL STANDARD
A complaint must contain “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” Fed. R. Civ. P. 8(a)(2). While
“detailed factual allegations are not required,” a
complaint must have sufficient factual allegations to
“state a claim to relief that is plausible on its face.”
Ashcroft v. Iqbal, 566 U.S. 662, 678 (2009) (citing Bell
Atlantic v. Twombly, 550 U.S. 544, 570 (2007)). A
claim is facially plausible “when the pleaded factual

Appendix C-4
content allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Id. This standard asks for “more
than a sheer possibility that a defendant acted
unlawfully.” Id. The determination is a contextspecific task requiring the court “to draw on its
judicial experience and common sense.” Id. at 679.
A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(1) challenges the court’s subject
matter jurisdiction over the asserted claims. It is the
plaintiff’s burden to prove jurisdiction at the time the
action is commenced. Tosco Corp. v. Communities for
Better Environment, 236 F.3d 495, 499 (9th Cir. 2001);
Morongo Band of Mission Indians v. Cal. State Bd. of
Equalization, 858 F.2d 1376, 1380 (9th Cir. 1988). A
court considering a 12(b)(1) motion to dismiss is not
limited to the pleadings, McCarthy v. United States,
850 F.2d 558, 560 (9th Cir. 1988), but may rely on
extrinsic evidence to resolve factual disputes relating
to jurisdiction. St. Clair v. City of Chico, 880 F.2d 199,
201 (9th Cir. 1989). Once a challenge has been raised
to the court’s subject matter jurisdiction, the party
opposing dismissal must “present affidavits or any
other evidence necessary to satisfy its burden of
establishing that the court, in fact, possesses subject
matter jurisdiction.” St. Clair, 880 F.2d at 201; Savage
v. Glendale Union High Sch., 343 F.3d 1036, 1039 n.2
(9th Cir. 2003).
A motion to dismiss a complaint under Federal
Rule of Civil Procedure 12(b)(6) tests the legal
sufficiency of the claims alleged in the complaint. See
Parks Sch. of Bus., Inc. v. Symington, 51 F.3d 1480,
1484 (9th Cir. 1995). Dismissal under Rule 12(b)(6)
may be based on either the “lack of a cognizable legal

Appendix C-5
theory” or on “the absence of sufficient facts alleged
under a cognizable legal theory.” UMG Recordings,
Inc. v. Shelter Capital Partners LLC, 718 F.3d 1006,
1014 (9th Cir. 2013). When evaluating such a motion,
the Court must “accept all factual allegations in the
complaint as true and construe the pleadings in the
light most favorable to the nonmoving party.” Knievel
v. ESPN, 393 F.3d 1068, 1072 (9th Cir. 2005). When a
plaintiff has failed to state a claim upon which relief
can be granted, leave to amend should be granted
unless “the complaint could not be saved by any
amendment.” Gompper v. VISX, Inc., 298 F.3d 893,
898 (9th Cir. 2002) (citation and internal quotation
marks omitted).
IV. DISCUSSION
A. Whether Plaintiffs’ Takings Claims Are
Ripe?
The City seeks dismissal of the first through
fourth claims for relief, which each allege that San
Francisco’s application of the ECP to the Unit resulted
in an unconstitutional taking of plaintiffs’ property
without compensation. According to the City, none of
these claims is ripe and therefore the Court lacks
jurisdiction to adjudicate any of them.
“The Fifth Amendment does not proscribe the
taking of property, it proscribes taking without just
compensation.” Williamson County Reg’l Planning
Comm’n v. Hamilton Bank, 473 U.S. 172, 194 (1985).
The Fifth Amendment does not require “that just
compensation be paid in advance of, or
contemporaneously with, the taking; all that is
required is that a ‘reasonable, certain and adequate
provision for obtaining compensation’ exist at the time

Appendix C-6
of the taking.” Id. Accordingly, where a state provides
an adequate procedure, a property owner cannot make
a claim for just compensation until he has used the
procedure and been denied compensation. Id. at 173.
There is no constitutional injury until plaintiffs have
availed themselves of the state’s procedures for
obtaining compensation for the injury, and been
denied compensation. San Remo Hotel v. City and
County of San Francisco, 145 F.3d 1095, 1102 (9th Cir.
1998). Invoking Williamson County, the City asserts
that plaintiffs’ claims are not ripe because they did not
file a state court judicial challenge to the ECP.
Plaintiffs respond that subsequent Supreme
Court and Ninth Circuit decisions have clarified that
Williamson County is a prudential standing rule, not
a jurisdictional bar. See Stop the Beach
Renourishment, Inc. v. Fla. Dep’t of Envtl. Prat., 560
U.S. 702 (2010) (finding that defendants had waived
nonjurisdictional ripeness argument); Horne v.
Department of Agriculture, 569 U.S 513, 133 S. Ct.
2053, 2062 (2013) (recognizing that the Williamson
County inquiry “is not, strictly speaking,
jurisdictional.”); Guggenheim v. City of Goleta, 638
F.3d 1111 (9th Cir. 2010) (exercising discretion not to
impose Williamson County’s prudential requirement).
While plaintiffs correctly characterize Williamson
County as establishing “prudential ripeness
principles” rather than a jurisdictional bar, see
Suitum v. Tahoe Regional Planning Agency, 520 U.S.
725, 733-34 (1997), the distinction is not critical here
because, unlike the defendants in Stop the Beach, the
City has not waived its ripeness argument. As-applied
takings claims, such as those advanced in the
complaint, require Williamson County exhaustion,
and the authorities on which plaintiffs rely do not

Appendix C-7
stand for the proposition that their claims fall outside
its prudential ripeness principles. In Horne, the
Supreme Court declined to find that the petitioner’s
claim was not ripe on the grounds that there was no
alternative remedy. See 133 S. Ct. at 2055 (“The
Government argues that petitioners’ takings claim is
premature because the Tucker Act affords a remedy,
but, in fact, the AMAA provides a comprehensive
remedial scheme that withdraws Tucker Act
jurisdiction over a handler’s takings claim. As a
result, there is no alternative remedy.”). Plaintiffs
here do not claim that a state court judicial remedy is
similarly unavailable. In Guggenheim, the Ninth
Circuit declined to impose the prudential state court
exhaustion requirement because it rejected the
plaintiff’s claim on the merits and because the parties
had already litigated in state court. No such factors
counsel deviation from Williamson County’s
requirements here.
Still, plaintiffs advance several arguments
against application of Williamson County. First,
plaintiffs assert that the Ordinance’s poison pill
provision, which halts the conversion process for nonresident TIC owners upon the filing of a lawsuit
challenging the Ordinance, applies equally whether
the suit is filed in state or federal court. They do not,
however, explain how this fact relates to the
advisability of deferring to state court jurisdiction as
a prudential matter.
Second, plaintiffs argue that because their first
claim for relief alleges a private taking, that claim is
exempt from the Williamson County ripeness
doctrine. Because a “private taking” is in essence an
illegal government action that cannot be justified with

Appendix C-8
any amount of compensation, such a claim becomes
ripe regardless of whether the plaintiff has sought
compensation. See Armendariz v. Penman, 75 F.3d
1311, n.5 (9th Cir. 1996). That being said, at least one
Ninth
Circuit
decision
has
rejected
the
characterization of claims as “private takings,” and
dismissed such claims as merely part of a standard
regulatory takings claim. See Rancho de Calistoga v.
City of Calistoga, 800 F.3d 1083, 1093 (9th Cir. 2015).
The Ninth Circuit’s holding is instructive in this case,
as it is unclear how plaintiffs can state on the face of
their complaint that the Ordinance violates the Public
Use Clause of the Fifth Amendment. In Kelo v. City of
New London, the Supreme Court interpreted the Fifth
Amendment’s “public use” requirement broadly, and
asked only whether the government’s exercise of
eminent power served a “public purpose.” See 545 U.S.
469, 480 (2005). This approach reflects the judiciary’s
“longstanding policy of deference to legislative
judgments in this field.” Id. Plaintiffs’ view that the
lifetime lease requirement has no conceivable public
purpose is plainly contradicted by the Ordinance’s
text, which articulates a government purpose of
controlling displacement of renters into an expensive
rental market. To look beyond the plain language of
the Ordinance’s stated purpose would entail an
unwarranted second-guess of the policy decisions of
San Francisco’s elected officials. Therefore, plaintiffs’
“private taking” claim must be construed as an
element of the regulatory takings claim, which is
subject to the ripeness requirement.
Finally, plaintiffs argue that Williamson County
does not apply to facial takings claims seeking only
injunctive or declaratory relief See Levin v. City and
County of San Francisco, 71 F. Supp. 3d 1072, 1079

Appendix C-9
(N.D. Cal. 2014). Accordingly, plaintiffs reason that
claim 10, which seeks declaratory relief for
constitutional violations alleged in the complaint, and
claim 11, which seeks corresponding injunctive relief,
cannot be dismissed on ripeness grounds. As a
technical matter, those are not “separate claims” for
pleading purposes, but rather requests for alternative
forms of relief. Plaintiffs styled their first through
fourth claims for relief as “as-applied” takings claims,
and the thrust of their complaint is that a particular
provision of the Ordinance has effected an
unconstitutional taking of their property. Thus, it is
not clear from the face of the complaint that plaintiffs
are bringing a facial challenge to the Ordinance. In
any case, plaintiffs believe they have incurred a
$500,000 loss in property value as a result of the
lifetime lease provision, which suggests that damages
is a central aspect of their claim, even if it may not be
their preferred remedy.
In short, plaintiffs’ takings claims are properly
characterized as as-applied challenges and subject to
the Williamson County ripeness requirements.
Because plaintiffs have not sought compensation for
the alleged taking of their property through a state
court inverse condemnation proceeding, they have not
exhausted state remedies and their takings claims
must be dismissed, without prejudice.2
2 The City asserts that because plaintiffs’ state law claims are
procedurally barred for reasons discussed in greater detail below,
dismissal of plaintiffs’ takings claims with prejudice is
warranted. Although the Ninth Circuit has yet to address this
particular scenario, at least three circuits have concluded that
dismissal is appropriate under similar circumstances. See
Holliday Amusement Co. of Charleston, Inc. v. South Carolina,
493 F.3d 404, 408 (4th Cir. 2007); Pascoag Reservoir & Dam, LLC

Appendix C-10
B. Whether Plaintiffs’ Section 1983 Claims
Are Precluded?
The City also argues that plaintiffs’ remaining
Section 1983 claims are each precluded by their
failure to seek writ relief in state court. Under the “full
faith and credit” provision of 28 U.S.C. § 1738, state
administrative proceedings are given the same
preclusive effect as state court judicial proceedings if
they possess the “requisite judicial character.” See
White v. City of Pasadena, 671 F.3d 918, 927 (9th Cir.
2012). The City argues that San Francisco’s approval
of the Tentative Map was an adjudicative decision by
an administrative agency, Arnel Development Co. v.
City of Costa Mesa, 28 Cal. 3d 511, 518 (1980), and
therefore plaintiffs’ failure to seek review through an
administrative writ precludes federal court review of
their Section 1983 claims. In determining the
preclusive effect of a state administrative decision or
a state court judgment, federal courts look to the
state’s rules of preclusion. See White, 671 F.3d at 926.
White sets out several factors that a court considers in
deciding whether a state agency is acting in a judicial
capacity:
(1) the administrative hearing was
conducted in a judicial-like adversary
proceeding; (2) the proceeding required
witnesses to testify under oath; (3) the
v. Rhode Island, 337 F.3d 87, 94 (1st Cir. 2003); Harbours Pointe
of Nashotah, LLC v. Vill. of Nashotah, 278 F.3d 701, 706 (7th Cir.
2002). While the state law claims asserted in the complaint may
be procedurally barred, it is not clear from the face of the
complaint that those procedural hurdles necessarily preclude
plaintiffs from seeking compensation on their takings theory in
state court. Therefore, dismissal without prejudice is
appropriate.

Appendix C-11
agency
determination
involved
the
adjudicatory application of rules to a single
set of facts; (4) the proceedings were
conducted before an impartial hearing
officer; (5) the parties had the right to
subpoena
witnesses
and
present
documentary evidence; and (6) the
administrative
agency
maintained
a
verbatim record of the proceedings.
Id. at 928.
The City contends that California courts have
weighed these factors and concluded that the City’s
subdivision decision became res judicata when
plaintiffs failed to appeal the Tentative Map decision,
and its preclusive effect now bars any collateral
challenge. None of the authorities relied upon by the
City, however, cast light on whether Tentative Map
approval was quasi-judicial in character. Mola
Development Co. v. City of Seal Beach, 57 Cal. App.
4th 405 (1997), assumed that the defendants’
disapproval of a tentative map was quasi-judicial
without explaining its reasoning, whereas Miller v.
County of Santa Cruz, 39 F.3d 1030 (9th Cir. 1994),
merely stated that an administrative decision may
have preclusive effect without satisfying every
provision of the California APA. The City’s only
authority that explicitly discusses the White factors
similarly fails to support its position. See McQuiston
v. City of Los Angeles, 564 Fed. App’x 303 (9th Cir.
2014). In that case, the administrative proceeding in
question involved fact development through the
taking of testimony and admission of evidence, clearly
satisfying the White elements. Id. at 307-08. By
contrast, nothing in plaintiffs’ complaint suggests that

Appendix C-12
the Tentative Map approval decision satisfied any of
the elements of a quasi-judicial proceeding. Therefore,
plaintiffs’ Section 1983 claims are not subject to
dismissal on grounds of preclusion.
C. Whether Plaintiffs Fail to State a Claim
Under 42 U.S.C. § 1983?
To state a claim under Section 1983, a plaintiff
must show that defendants, acting under color of state
law, deprived him or her of federal rights, privileges,
or immunities, and caused damages. See Thornton v.
City of St. Helens, 425 F.3d 1158, 1164 (9th Cir. 2005).
Because Section 1983 is not itself a source of
substantive rights, plaintiffs must establish that the
City’s alleged actions deprived them of some right,
privilege, or immunity protected by the Constitution
or the laws of the United States.
1. Equal Protection
The City argues that plaintiffs fail to state a claim
under the Equal Protection Clause of the Fourteenth
Amendment because they have not alleged
membership in a protected class and do not seek
protection of a fundamental right. As a general rule,
unless a classification warrants some form of
heightened review because it jeopardizes exercise of a
fundamental right or categorizes on the basis of an
inherently suspect characteristic, the Equal
Protection Clause requires only that the classification
further a legitimate state interest. See, e.g., City of
Cleburne v. Cleburne Living Center, Inc., 473 U.S. 432,
439-41 (1985); City of New Orleans v. Dukes, 427 U.S.
297, 303 (1976).
Here, plaintiffs do not claim to belong to a suspect
class. Rather, they contend that the lifetime lease

Appendix C-13
requirement infringes upon the fundamental right to
privacy in the use of their home. See Tom v. City & Cty
of San Francisco, 120 Cal. App. 4th 674, 686 (2004)
(“We agree with the trial court that there is an
‘autonomy privacy’ interest in choosing the persons
with whom a person will reside, and in excluding
others from one’s private residence.”). This argument
is unavailing for the principal reason that plaintiffs
have already in some sense opened their home to the
possession and use by their existing tenant. Tom
involved a challenge to an ordinance that prohibited
TIC owners from executing agreements that gave each
owner exclusive access to their own unit. The court in
that case held that the ordinance violated the
plaintiffs’ privacy interest in choosing persons with
whom they reside. This case is different. Here, what
plaintiffs seek is the ability to remove an existing
tenant from their home at whichever point in time
they desire to occupy the home. Although plaintiffs
may feel they should be entitled to pursue that course,
it is not a fundamental right in the constitutional
sense. Because the lifetime lease requirement does
not implicate a fundamental right, plaintiffs do not
state a claim subject to strict scrutiny.
Under the more deferential rational basis review,
the City argues that the constitutionality of the
lifetime lease requirement is presumed unless
plaintiffs can show that the City’s disparate treatment
of TIC owners with existing tenants has no rational
relationship to a legitimate state interest. Rational
basis review in Equal Protection analysis “is not a
license for courts to judge the wisdom, fairness, or
logic of legislative decisions.” Heller v. Doe, 509 U.S.
312, 319 (1993). The City’s objectives in imposing the
lifetime lease requirement are expressly articulated

Appendix C-14
in the Ordinance and pass rational basis review.
Mindful that permitting large-scale conversion of
apartments into condominiums could result in
widespread displacement of existing tenants, the
Ordinance sought to balance this impact by requiring
that applicants for the ECP offer existing tenants a
lifetime lease. This requirement is not applied to TIC
owners without existing tenants because conversion of
their units to condominiums is not projected to result
in displacement. While reasonable minds may
question the Board of Supervisors’ reasoning in
making this distinction, plaintiffs have alleged no
facts warranting a second-guess of that legislative
decision. Accordingly, plaintiffs’ seventh claim for
relief under the Equal Protection Clause must also be
dismissed.
2. Due Process
As explained above, plaintiffs fail to show that the
lifetime lease requirement infringes upon a
fundamental right. Because plaintiffs also cannot
show that the lifetime lease requirement is devoid of
a legitimate government purpose, their substantive
due process claim fails as well. The bar for
demonstrating governmental arbitrariness is high,
requiring an “abuse of power lacking any reasonable
justification in the service of a legitimate
governmental objective.” Shanks v. Dressel, 540 F.3d
1082, 1088 (9th Cir. 2008) (internal quotations
omitted). Plaintiffs have alleged no governmental
conduct that gives rise to a constitutional violation.
Therefore, plaintiffs’ sixth claim for relief is also
dismissed.

Appendix C-15
3. Unreasonable Seizure
The City seeks dismissal of plaintiffs’ fifth claim
for relief, which asserts that the lifetime lease
requirement amounts to an unreasonable seizure in
violation of the Fourth Amendment to the United
States Constitution. Under the Fourth Amendment, a
seizure occurs when “there is some meaningful
interference with an individual’s possessory interests”
in the property seized. Maryland v. Macon, 472 U.S.
463, 469 (1985). According to the City, plaintiffs were
not compelled by the government to convert their TIC
into condominiums. Once they voluntarily chose to do
so, they accepted a valuable property right from the
City in exchange for offering a lifetime lease to their
existing tenant. The nature of this exchange is not a
“seizure” for purposes of the Fourth Amendment.
Maryland v. Macon, 472 U.S. at 469.
Plaintiffs not surprisingly disagree, arguing that
their contractual obligation to take all steps necessary
to convert their TIC into condominiums rendered the
lifetime lease offer “involuntary”. They allege that the
TIC agreement they signed bound them to participate
in condominium conversion. When the other TIC coowners applied for condominium conversion, plaintiffs
assert they were contractually required to cooperate
or compensate their co-tenants for potentially
significant damages. After conversion was complete,
plaintiffs requested that the City not enforce the
execution of the lifetime lease offer they had extended
as a condition of condominium conversion. Because
the City refused to release them from this obligation,
plaintiffs believe they did not voluntarily consent to
the seizure of their property within the meaning of the
Fourth Amendment.

Appendix C-16
Although events outside of their control may have
frustrated plaintiffs’ expectations with respect to
future use of the Unit they purchased in 2009, they
fail to identify any basis for alleging that the City was
responsible for coercing them into doing anything.
That the TIC agreement compelled plaintiffs to make
concessions they found disagreeable is a risk that all
tenants-in-common bear when entering into that type
of legal relationship. A subsequent change in the law
that affected plaintiffs’ obligations under the TIC
agreement might have been cause for plaintiffs to
contest the TIC agreement itself, but the City did not
force plaintiffs to initiate the ECP application process.
Because plaintiffs extended the lifetime lease offer in
order to obtain a property right granted by the City,
they do not allege an involuntary seizure within the
meaning of the Fourth Amendment. Therefore,
plaintiffs’ fifth claim for relief must be dismissed.
D. Whether Plaintiffs’ State Law Claims
Are Procedurally Barred?
1. Statute of Limitations
The City asserts that each of plaintiffs’ state law
claims is time-barred under California Government
Code Section 66499.37. Section 66499.37 states:
Any action or proceeding to attack, review,
set aside, void, or annul the decision of an
advisory agency, appeal board, or legislative
body concerning a subdivision, or of any of
the proceedings, acts, or determinations
taken, done, or made prior to the decision, or
to determine the reasonableness, legality, or
validity of any condition attached thereto,
including, but not limited to, the approval of

Appendix C-17
a tentative map or final map, shall not be
maintained by any person unless the action
or proceeding is commenced and service of
summons effected within 90 days after the
date of the decision.
The 90-day limitations period is expressly applicable
to any action “to determine the reasonableness,
legality, or validity” of any subdivision condition
“including, but not limited to, the approval of a
tentative map or final map . . . .” Aiuto v. City and
County of San Francisco, 201 Cal. App. 4th 1347, 1357
(2011). The limitations period to challenge a condition
of approval of the Tentative Map begins to run from
the time the City issues its Tentative Map decision.
See, e.g., Griffis v. County of Mono, 163 Cal. App. 3d
414, 423 (1985). Accordingly, the City argues that
plaintiffs were required to bring a mandamus action
challenging the conditions of approval no later than
90 days after the date of approval of the Tentative
Map – in April 2016. Because this lawsuit was not
filed until June 26, 2017, the City insists plaintiffs’
claims are barred by the statute of limitations.
Plaintiffs disagree with the City’s view of when
the limitations period began to run. They argue that
they could not have challenged the City’s decision in
April 2016 because the condition placed on the
Tentative Map approval required them only to extend
a lifetime lease offer to their tenant. Until the tenant
accepted, they reason, there was no basis to challenge
the City’s decision as an unconstitutional taking.
Instead, they propose that the clock started on either
(1) the date the tenant signed the lifetime lease form;
or (2) the date the City denied relief from the unfair
taking. In other words, according to plaintiffs, they

Appendix C-18
could not have challenged the City’s decision until a
takings claim had ripened, which was either when the
tenant signed the lifetime lease offer, which
established the amount of compensation to which
plaintiffs believed they were entitled, or when the City
denied relief from the allegedly improper taking by
refusing to exempt plaintiffs from the lifetime lease or
to pay compensation. Because the dates of these
events were May 5, 2017, and June 2017, respectively,
plaintiffs contend that their lawsuit is timely.
The City appears to have the better of the
argument. Plaintiffs cite no authority supporting their
view that the decision referenced in Section 66499.37
refers to any date other than when the relevant
condition is placed on approval of a tentative plan.
Furthermore, the ripeness of plaintiffs’ takings
claims, which are brought under federal law, is
irrelevant to the question of when the statute of
limitations began to run on their state law claims.
Plaintiffs have given no indication that their
challenges to the Ordinance under the Ellis Act and
Costa Hawkins Act, and under the California
Constitution, could not have been brought within the
90-day limitations period following Tentative Map
approval. Accordingly, the eighth and ninth claims for
relief are time-barred and will be dismissed.
2. Forfeiture
The City also argues that plaintiffs forfeited their
state law claims by accepting the significant benefits
of the Tentative and Final Subdivision Maps when
they converted the Unit from a TIC to a condominium.
“In the land use context, a landowner may not
challenge a permit condition if he has acquiesced to it
either by specific agreement, or by failure to challenge

Appendix C-19
the condition while accepting the benefits afforded by
the permit.” Lynch v. California Coastal Commission,
3 Cal. 5th 470 (2017). In the City’s view, because
plaintiffs
completed
the
conversion
into
condominiums and realized its associated financial
advantages (such as an increase in the value of the
property and ability to sell, lease, and finance the Unit
separately from the other units in the property), they
forfeited the right to seek a judicial determination on
their objections to the conditions of Tentative Map
approval.
Plaintiffs argue that the Mitigation Fee Act
creates an exception to the forfeiture rule, allowing
landowners to comply with an improper condition
under protest if that condition is related to a
possessory interest in the property. Government Code
§ 66000 et seq., Sterling Park LP v. City of Palo Alto,
57 Cal. 4th 1193, 1206-1207 (2013). That may be so,
but plaintiffs have alleged no facts showing that the
Mitigation Fee Act, rather than Section 66499.37, is
applicable here. Plaintiffs are not developers seeking
to challenge “fees, dedications, reservations, or other
exactions imposed on a development project.”
Government Code § 66020. Because nothing in the
complaint reflects that the Mitigation Fee Act governs
this case, plaintiffs must comply with the general
requirements of Section 66499.37. Plaintiffs also
argue, without citation to authority, that the
forfeiture doctrine in Lynch only applies to
discretionary conditions placed on government
approval. Because the lifetime lease offer is a
mandatory requirement for approval under the ECP,
plaintiffs believe Lynch is inapplicable to the facts of
this case. Unfortunately for plaintiffs, nothing in

Appendix C-20
Lynch itself suggests that its holding is limited by the
nature of conditions attached to land use permits.
The facts of Lynch do appear to be analogous to
this case in important respects. There, beachfront
homeowners sought to obtain a permit to build a
seawall. While litigation over certain conditions
attached to the seawall permit was pending, the
homeowners satisfied the permit’s other conditions
and built the seawall. The Supreme Court of
California subsequently held that the homeowners, by
accepting the benefits of the permit, had forfeited the
right to challenge conditions attached to it. Because
plaintiffs have successfully converted their property
from a TIC into a condominium under the ECP, they
have arguably accepted the projected benefits of the
conversion and therefore forfeited the right to
challenge a condition of conversion. That the actual
value of conversion may have been affected by the
condition does not necessarily impact the analysis.
The homeowners in Lynch challenged a condition that
placed a 20-year expiration on the seawall’s permit,
which likely reduced the projected benefit of the
seawall to the homeowners. Nonetheless, once the
seawall was built, the homeowners were held to have
accepted the benefits of the seawall permit.
Accordingly, because plaintiffs did not sue until
condominium conversion was complete, they forfeited
the right to challenge conditions attached to
conversion approval. The eighth and ninth claims for
relief are dismissed for that reason.3
3 The City also contends that similar principles can be applied to
plaintiffs’ federal claims under federal law, which the City
believes are equitably estopped. See Kaneb Services, Inc. v.
Federal Sav. And Loan Ins. Corp., 650 F.2d 78, 81 (C.A.5, 1981).

Appendix C-21
3. Exhaustion
The City asserts that plaintiffs’ failure to bring
timely administrative and judicial challenges to the
Tentative Map approval also bars their state law
claims under the doctrines of exhaustion of
administrative remedies and res judicata. In order to
bring a judicial challenge to a decision of an
administrative agency, a party must demonstrate that
it has exhausted all available administrative
procedures, including all available appeals of the
agency’s decision. See Coachella Valley Mosquito &
Vector Control Dist. v. California Public Employment
Relations Bd., 35 Cal. 4th 1072, 1080 (2005).
Furthermore, a party who does not seek timely
judicial review of an administrative decision is
precluded from later litigating the issue, under the
doctrines of res judicata and collateral estoppel. See
Johnson v. City of Loma Linda, 24 Cal. 4th at 70; City
and County of San Francisco v. Ang, 97 Cal. App. 3d
at 677-79. Therefore, because plaintiffs cannot
demonstrate that they appealed the conditions of the
Tentative Map approval to the Board of Supervisors
as required by the San Francisco Subdivision Code,
see S.F. Subd. § 1314, the City argues, they cannot
now challenge those conditions.
As articulated in their objections to the City’s
statute of limitations argument, discussed in Part
IV.C.1, plaintiffs respond that exhaustion is not
required because their takings claims did not ripen
within
the
limitations
period
for
raising
The single case relied upon by the City is not instructive on this
matter. Therefore, the City’s forfeiture arguments will be
construed as applying only to plaintiffs’ state law claims, which
are forfeited under California law.

Appendix C-22
administrative and judicial challenges to the lifetime
lease requirement. Once again, it is unclear why the
ripeness analysis of plaintiffs’ federal takings claims
are dispositive with respect to exhaustion of their
state law claims. Because there is no indication that
those state law claims would not have ripened within
the limitations period, the eighth and ninth claims for
relief are dismissed for failure to exhaust
administrative remedies.
V. CONCLUSION4
In summary, claims for relief 5 through 7 are
dismissed for failure to state a claim for which relief
can be granted. Claims for relief 8 and 9 are dismissed
as procedurally barred by the statute of limitations,
forfeiture, and the doctrine of administrative
exhaustion. Because the defects in these claims
4 In the event plaintiffs’ claims are not dismissed with prejudice,
the City asks this Court to abstain from entertaining this action
under the Pullman doctrine. The Pullman doctrine is an
equitable doctrine that allows a federal court to avoid deciding
federal constitutional questions where resolution of state law
issues could obviate the need for a ruling under federal law, and
the state law issues would be more properly decided by a state
court. See Railroad Commission of Tex. v. Pullman Co., 312 U.S.
496 (1941); San Remo Hotel, 145 F.3d 1095, 1104 (9th Cir. 1998).
While a close question, Pullman abstention is not warranted in
this case, particularly where there is no indication that a legal
challenge is already in place for adjudication in state court. This
is not a case involving a complicated state administrative or
regulatory scheme that a federal court is poorly situated to
evaluate. Plaintiffs challenge only the lifetime lease requirement
aspect of the ECP scheme, and their complaint does not present
legal and factual issues so complex that it is beyond the power of
a federal court to adjudicate. Because the City has not provided
adequate grounds for this Court to refrain from the deciding the
issues of this case, the complaint will not be dismissed on
abstention grounds.

Appendix C-23
cannot be cured by amendment, dismissal is without
leave to amend.
Claims for relief 1 through 4 are dismissed as not
ripe. Dismissal is without prejudice, as plaintiffs are
not precluded from seeking compensation for their
alleged takings in state court.
Claims for relief 10 through 12 are construed as
requests for alternative forms of relief, as opposed to
free-standing claims, and are dismissed in accordance
with the underlying claims for relief articulated in the
complaint.
IT IS SO ORDERED.
Dated: November 20, 2017
s/ Richard Seeborg
RICHARD SEEBORG
United States District Judge

Appendix D-1
Filed 10/19/2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PEYMAN PAKDEL; SIMA
CHEGINI,

No. 17-17504

D.C. No. 3:17-cvPlaintiffs-Appellants, 03638-RS
Northern District
v.
of California,
CITY AND COUNTY OF
San Francisco
SAN FRANCISCO; et al.,
Defendants-Appellees. ORDER

Before: GOULD, BEA, and FRIEDLAND, Circuit
Judges.
Appellants’ motion to stay issuance of the
mandate pending the filing of a petition for a writ of
certiorari is granted. Fed. R. App. P. 41(d). The
mandate is stayed for 150 days pending the filing of a
petition for a writ of certiorari in the Supreme Court.
If a petition for a writ of certiorari is filed before the
stay expires, the stay shall continue until final
disposition of the matter by the Supreme Court. While
the mandate remains stayed, Appellants shall
immediately inform this Court when Appellants have
either filed, or decided not to file, a petition for writ of
certiorari.

Appendix E-1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PEYMAN PAKDEL; SIMA CHEGINI,

No. 17-17504

Plaintiffs-Appellants,

D.C. No.
3:17-cv-03638RS

v.
CITY AND COUNTY OF SAN
FRANCISCO; SAN FRANCISCO
BOARD OF SUPERVISORS; SAN
FRANCISCO DEPARTMENT OF
PUBLIC WORKS,

ORDER

Defendants-Appellees.

Filed October 13, 2020
Before: Ronald M. Gould, Carlos T. Bea, and
Michelle T. Friedland, Circuit Judges.
Order;
Dissent by Judge Collins
SUMMARY*
_________________________________________________

_____________________
* This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the
reader.

Appendix E-2
Civil Rights
The panel denied on behalf of the court a petition
for rehearing en banc in an action brought pursuant
to 42 U.S.C. § 1983 against the City and County of San
Francisco asserting a Takings Clause challenge to the
City’s Expedited Conversion Program, which allows
property owners to convert their tenancy-in-common
properties into condominium properties on the
condition that the owners agree to offer any existing
tenants lifetime leases in units within the converted
property.
Dissenting from the denial of rehearing en banc,
Judge Collins, joined by Judges Callahan, M. Smith,
Ikuta, R. Nelson, Bade, Bress, Bumatay, and
VanDyke, stated that the panel’s unprecedented
decision sharply departed from settled law and
directly contravened the Supreme Court’s decision in
Knick v. Township of Scott, 139 S. Ct. 2162 (2019),
which held that a plaintiff asserting a Takings Clause
claim under § 1983 is not required to exhaust state
remedies.
COUNSEL
Jeffrey W. McCoy (argued), James S. Burling, and
Erin E. Wilcox, Pacific Legal Foundation,
Sacramento, California; Paul F. Utrecht, Utrecht &
Lenvin, LLP, San Francisco, California; Thomas W.
Connors, Black McCuksey Souers & Arbaugh, LPA,
Canton, Ohio; for Plaintiffs-Appellants.
Kristen A. Jensen (argued) and Christopher T. Tom,
Deputy City Attorneys; Dennis J. Herrera, City
Attorney; Office of the City Attorney, San Francisco,
California; for Defendants-Appellees.

Appendix E-3
Sarah Harbison, Pelican Institute for Public Policy,
New Orleans, Louisiana; for Amicus Curiae Pelican
Institute for Public Policy.
Kimberly
S.
Hermann,
Southeastern
Legal
Foundation, Roswell, Georgia; for Amici Curiae
Southeastern Legal Foundation, National Federation
of Independent Business Small Business Legal
Center, and Beacon Center of Tennessee.
_________________________________________________
ORDER
Judge Gould and Judge Friedland have voted to
deny the petition for rehearing en banc. Judge Bea has
voted to grant the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc. A judge of the court requested a
vote on en banc rehearing. The matter failed to receive
a majority of votes of non-recused active judges in
favor of en banc consideration. Fed. R. App. P. 35(f).
The petition for rehearing en banc is DENIED.
Judge Collins’s dissent from the denial of en banc
rehearing is filed concurrently herewith.
_________________________________________________
COLLINS, Circuit Judge, with whom CALLAHAN,
M. SMITH, IKUTA, R. NELSON, BADE, BRESS,
BUMATAY, and VANDYKE, Circuit Judges, join,
dissenting from the denial of rehearing en banc:
Less than one year after the Supreme Court
squarely held that a plaintiff asserting a Takings
Clause claim under § 1983 is not required to exhaust
state remedies, see Knick v. Township of Scott, 139 S.
Ct. 2162, 2167 (2019), the panel majority in this case
effectively imposed such a requirement by holding

Appendix E-4
that a plaintiff who commits a procedural default
during the local administrative process forfeits any
right to thereafter assert a takings claim. Because the
panel’s unprecedented decision sharply departs from
settled law and directly contravenes the Supreme
Court’s decision in Knick, I respectfully dissent from
our denial of rehearing en banc.
I
Prior to 2013, the City and County of San
Francisco (“City”) had a program whereby the
multiple property owners who hold interests in multiunit properties as tenants in common could convert
their jointly owned buildings to individually owned
condominiums. Pakdel v. City & Cnty. of San
Francisco, 952 F.3d 1157, 1161 (9th Cir. 2020).
Conversion rights were granted based on an annual
lottery, and demand for conversion far outstripped the
program’s limited allotment. Id. In 2013, in an
attempt to clear the backlog of conversion
applications, the City replaced the conversion lottery
with the Expedited Conversion Program (“ECP”). Id.
The ECP allows all owners to convert their properties
to condominiums, subject to an application fee and
certain conditions, among which was the requirement
that, if an owner was renting his or her unit to a
tenant, the owner had to offer that tenant a lifetime
lease—i.e., the “Lifetime Lease Requirement.” Id. An
owner who offered a lifetime lease to a tenant received
a partial refund of the ECP application fee. Id. The
City’s program notably contained a program-wide
poison pill: any legal challenge to the Lifetime Lease
Requirement would trigger a suspension of the entire
ECP for all owners of tenant-occupied units for the
duration of the litigation. Id. at 1162.

Appendix E-5
Peyman Pakdel and Sima Chegini (“Plaintiffs”)
purchased an interest in a tenancy-in-common
property in San Francisco in 2009. 952 F.3d at 1161.
The couple had hoped to move into their unit of the
building when they retired. Id. In the meantime, they
rented their unit to a tenant. Id. Plaintiffs’ “Tenancy
in Common Agreement” obligated them to cooperate
with the other owners by taking all steps necessary to
convert their building to condominiums. At the time
Plaintiffs purchased their interest and executed the
Tenancy in Common Agreement, the City was still
operating the conversion lottery, under which there
was no Lifetime Lease Requirement.
In 2015, pursuant to their contractual obligations,
Plaintiffs—along with the other joint owners of their
building—submitted an ECP application to the San
Francisco Department of Public Works (“the
Department”). 952 F.3d at 1161. In January 2016,
after a public hearing, the Department approved their
“tentative conversion map.” Id. Subsequently,
Plaintiffs signed an agreement with the City to offer a
lifetime lease to their tenant and then did offer their
tenant such a lease. Id. at 1161–62. Because they had
done so, the couple received a partial refund of their
application fee. Id. at 1162. In December 2016, the
Department approved their “final conversion map.”
Id.
Instead of executing the lease, however, Plaintiffs
twice requested, on June 9 and 13, 2017, that the City
grant them an exemption from the Lifetime Lease
Requirement or else compensate them for offering the
lease. 952 F.3d at 1162. As the panel majority notes,
“the City refused both requests.” Id. Plaintiffs then
sued in federal court under Revised Statutes § 1979,

Appendix E-6
42 U.S.C. § 1983, claiming, inter alia, that the City
had taken their property without just compensation,
in violation of the Fifth Amendment’s Takings Clause.
The district court granted the City’s motion to
dismiss, finding that Plaintiffs’ suit was not ripe
because they had not sought compensation for the
alleged taking in state court, as required under the
Supreme Court’s decision in Williamson County
Regional Planning Commission v. Hamilton Bank of
Johnson City, 473 U.S. 172 (1985). See Pakdel v. City
& Cnty. of San Francisco, 2017 WL 6403074, at *4
(N.D. Cal. Nov. 20, 2017).
While the district court’s order was on appeal
before this court, the Supreme Court issued its
decision in Knick, which overruled the portion of
Williamson County on which the district court had
relied. Specifically, the Court eliminated the
requirement that § 1983 takings plaintiffs must first
seek compensation in state court. 139 S. Ct. at 2169–
70. As the Court explained, this aspect of “Williamson
County effectively established an exhaustion
requirement for § 1983 takings claims,” contrary to
the “‘general rule’” governing all other “constitutional
claims under § 1983.” Id. at 2172–73.
Rather than remand the case, however, the panel
majority affirmed the district court’s decision on the
alternative ground that Plaintiffs failed to meet
Williamson County’s separate “ripeness” requirement
that Plaintiffs secure a “final decision” from the
relevant decisionmaker. Pakdel, 952 F.3d at 1163. The
majority reached this conclusion even though there
are concededly no further avenues of administrative
relief open to Plaintiffs to avoid the City’s definitive
imposition of the Lifetime Lease Requirement on

Appendix E-7
Plaintiffs’ unit. In the majority’s view, the City’s nowunalterable decision to extract a lifetime lease from
Plaintiffs should nonetheless be deemed to be nonfinal for takings purposes because Plaintiffs
“bypassed” previously available administrative
procedures that might have avoided the lease. Id. at
1167.
Judge Bea dissented, concluding that “the City
here has indeed reached . . . a final decision,” and that
Williamson County required nothing more. 952 F.3d
at 1170. Judge Bea noted that, by making the finality
of the City’s decision turn on whether Plaintiffs had
committed a procedural default during the
administrative process, “rather than simply
evaluating whether a decision about the application of
a regulation is final,” the majority’s approach had
departed from Williamson County and had effectively
“‘establish[ed] an exhaustion requirement for § 1983
takings claims,’ something the law does not allow.” Id.
II
The Supreme Court has long held that suits under
§ 1983 are not subject to exhaustion. See Knick, 139 S.
Ct. at 2167 (“[T]he settled rule is that exhaustion of
state remedies is not a prerequisite to an action under
42 U.S.C. § 1983.” (simplified)); see also Patsy v. Board
of Regents, 457 U.S. 496, 504 (1982) (§ 1983 provides
“immediate access to the federal courts”). In Knick,
the Supreme Court affirmed that takings claims are
no exception and that exhaustion of state remedies is
not required for such claims—indeed, that point was
one of the bases on which the Supreme Court rested
its partial overruling of Williamson County. The Court
held that, in requiring property owners to first pursue
just compensation in state court, Williamson County

Appendix E-8
had
“effectively
established
an
exhaustion
requirement for § 1983 takings claims” and that, had
Williamson County expressed its holding “in those
terms[,] . . . its error would have been clear.” 139 S. Ct.
at 2173. Thus, under Knick, exhaustion of state
remedies is not required for § 1983 takings claims.
Knick left undisturbed Williamson County’s
second holding, which is that, before bringing a
takings claim, a property owner must obtain a “final
decision regarding the application of the regulations
to the property at issue.” See Williamson Cnty., 473
U.S. at 186. This ripeness requirement is driven by
the “very nature” of the Takings Clause inquiry, which
depends on fact-intensive considerations that “simply
cannot be evaluated until the administrative agency
has arrived at a final, definitive position regarding
how it will apply the regulations at issue to the
particular land in question.” Id. at 190–91. Thus, in
order to ensure that a local land-use authority, such
as a zoning board, has arrived at a definitive position
regarding a specific dispute, a property owner must
invoke available administrative procedures, including
seeking exemptions from otherwise applicable
requirements. Id. at 188. In the absence of such a
definitive application of the regulations to the
property at issue, the federal court would be “unable
to discern how a grant of a variance . . . would have
affected the profitability of the development,” thereby
rendering the takings inquiry “impossible.” Id. at 191;
see also Southern Pac. Transp. Co. v. City of Los
Angeles, 922 F.2d 498, 504 (9th Cir. 1990) (“It is
precisely this type of speculation that the ripeness
doctrine is intended to avoid.”).

Appendix E-9
The Court in Williamson County, however,
carefully distinguished this finality requirement from
an exhaustion requirement, noting that the “question
whether administrative remedies must be exhausted
is conceptually distinct . . . from the question whether
an administrative action must be final before it is
judicially reviewable.” 473 U.S. at 192. The purpose of
a finality requirement, the Court explained, is simply
to ensure that “the initial decisionmaker has arrived
at a definitive position on the issue that inflicts an
actual, concrete injury,” whereas an exhaustion
requirement focuses on whether the claimant has
complied
with
“administrative
and
judicial
procedures” for seeking relief. Id. at 193.
Under the facts of this case, the application of
Williamson County’s finality requirement is
straightforward. The City has definitively imposed
the Lifetime Lease Requirement on Plaintiffs’
property, and there is no further avenue open to them
under local law to avoid that. Indeed, Plaintiffs twice
requested an exemption from the requirement, and
the City rejected both requests. Neither the City nor
the panel majority contend that any route of
administrative appeal remains available to Plaintiffs.
There is therefore no danger that a federal court
would have to speculate as to how the City would
apply the Lifetime Lease Requirement here. The
City’s decision is final, the Lifetime Lease
Requirement applies, and Plaintiffs’ suit is ripe. The
panel therefore should have remanded the case to the
district court for consideration of the merits of
Plaintiffs’ claim.1
1 I express no view as to whether Plaintiffs’ takings claim has any
merit.

Appendix E-10
III
The panel majority nonetheless holds that,
because Plaintiffs previously “could have sought an
exemption” from the City and failed to do so, the City’s
now-unalterable imposition of the Lifetime Lease
Requirement is deemed to be forever “unripe” for
review. 952 F.3d at 1163, 1165. The majority reaches
this conclusion even though it concedes that, as
matters now stand, there are no longer any
administrative procedures available to Plaintiffs to
forestall the challenged action of the City. Id. at 1167–
68. The panel majority’s decision thus saddles
Plaintiffs with a plainly final decision that will
nonetheless be deemed (forever) to be “non-final” for
takings purposes simply because, earlier during the
administrative process, Plaintiffs failed to pursue
possible administrative measures that the City now
denies to them. This is not the finality requirement
described in Williamson County and it bears no
relation to any conventional notion of “ripeness”
doctrine. On the contrary, it is an exhaustion
requirement pure and simple, backed up (as
exhaustion requirements are) by procedural-default
rules. The panel has thus defied Supreme Court
authority by converting Williamson County’s finality
requirement into precisely the sort of exhaustion
requirement disavowed in that case and explicitly
rejected as a “clear” error in Knick.
We know that the panel majority’s rule is an
“exhaustion” requirement, because the Supreme
Court has told us that it is: under familiar principles
of administrative law governing exhaustion, a
plaintiff “must complete the administrative review
process in accordance with the applicable procedural

Appendix E-11
rules, including deadlines, as a precondition to
bringing suit in federal court.” Woodford v. Ngo, 548
U.S. 81, 88 (2006) (emphasis added); see also id. at 90.2
As the Woodford Court noted, the concept of “proper
exhaustion” in the administrative-law context is
analogous to the exhaustion requirement in habeas
law, where “the sanction for failing to exhaust
properly (preclusion of review in federal court) is given
the separate name of procedural default.” Id. at 92.
Under that procedural-default doctrine, a prisoner
must “comply with the deadline for seeking statecourt review” of federal claims or else be “barred from
asserting those claims in a federal habeas
proceeding.” Id. at 92–93. Woodford’s description of
this concept of exhaustion exactly fits the rule that the
panel majority applied here—because Plaintiffs did
not invoke previously available administrative
procedures in a timely manner, their claims are now
barred and will never be considered on their merits.
The panel majority’s holding that Plaintiffs’ failure to
pursue an earlier administrative process bars their
takings claim is an exhaustion requirement, and it is
flatly precluded by Knick (which expressly bars
______________________
2 The decision in Woodford involved the Prison Litigation Reform
Act (“PLRA”), in which Congress created an explicit statutory
exception to the general rule that § 1983 claims need not be
exhausted. See 42 U.S.C. § 1997e(a) (“No action shall be brought
with respect to prison conditions under section 1983 . . . until
such administrative remedies as are available are exhausted.”).
Because the Woodford Court held that the PLRA “uses the term
‘exhausted’ to mean what the term means in administrative law,”
548 U.S. at 93, its general description of ordinary exhaustion
principles extends beyond the PLRA context and thereby
identifies the type of exhaustion rules that generally do not apply
to § 1983 claims, including (after Knick) takings claims.

Appendix E-12
requiring exhaustion for takings claims) and by
Williamson County (which affirmed that its ripeness
requirement was not an exhaustion requirement).
The panel majority’s illicit imposition of an
exhaustion requirement is further confirmed by the
fact that the panel majority expressly borrows its rule
from caselaw interpreting the very state-litigation
requirement from Williamson County that Knick
expressly overruled as constituting an improper
exhaustion requirement. The majority notes that
courts interpreting the now-overruled requirement to
exhaust state litigation remedies had rejected claims
by plaintiffs who “missed deadlines or failed to comply
with
other
requirements”
when
pursuing
compensation in state proceedings. See Pakdel, 952
F.3d at 1166–67 (collecting cases). Such an outcome is
exactly what one would expect from an exhaustion or
procedural default regime, and Knick overruled the
state-litigation requirement for the very reason that it
was an exhaustion regime. The fact that the majority’s
holding relies on the now-overruled state-litigation
cases confirms that it is clearly wrong: the statelitigation
requirement
and
the
majority’s
interpretation of the finality requirement both create
exhaustion requirements where none should exist.
IV
The panel majority’s attempt to ground its new
exhaustion requirement in existing case authority
fails.
The panel majority remarkably suggests that
Williamson County itself actually endorsed the view
that missed deadlines produce the sort of oxymoronic
perpetual unripeness that the majority adopted here.

Appendix E-13
952 F.3d at 1166. The panel majority’s cryptic
discussion of Williamson County is somewhat hard to
follow, but the majority appears to suggest that the
Court considered and rejected the view that the
applicant there could satisfy the finality requirement
by defaulting on available remedies until the point
that any further hope of obtaining variances “would
have been too late under the commission’s
regulations.” Id. Williamson County says nothing of
the sort. There was no hint in that case that remedies
would expire or become forever unavailable through
procedural default. Rather, the claimant in
Williamson County argued that it should not have to
invoke available variance procedures before
challenging, as a taking, the local government’s
disapproval of its proposed development plat. 473 U.S.
at 192. The Court rejected this argument, because
resorting to the available “procedure for obtaining
variances would result in a conclusive determination
by the Commission whether it would allow respondent
to develop the subdivision in the manner respondent
proposed.” Id. at 193. Given that, under the
Commission’s regulations, “any condition shown on
the plat which would require a variance will
constitute grounds for disapproval of the plat,” id. at
190 (emphasis added), it followed that the
Commission’s disapproval of the plat merely
“prevent[ed] respondent from developing its
subdivision without obtaining the necessary variances,
but leaves open the possibility that respondent may
develop the subdivision according to its plat after
obtaining the variances,” id. at 193–94 (emphasis
added). Williamson County was thus relying on the
continued availability of variances; it said nothing at
all about procedural default.

Appendix E-14
The majority is likewise wrong in suggesting that
our decision in Southern Pacific Transportation Co.
endorsed its view. See 952 F.3d at 1165. In that case,
the appellants opposed the rezoning of land that they
owned, but they had never proposed an alternative
plan for use of the land or requested variances from
the new zoning requirements. 922 F.2d at 504. We
held that their takings claim was not ripe because,
without an actual plan, “federal courts would be
required to guess what possible proposals appellants
might have filed with the City, and how the City might
have responded to these imaginary applications.” Id.
The clear premise of our holding was that the
opportunity to submit a plan was still available.
Beyond these inapposite citations, the panel
majority points to no case in which we have ever
applied ripeness or finality doctrine in the peculiar
way the panel majority did here. On the contrary, we
have repeatedly held that when a takings plaintiff has
“no further procedures available to [it] to challenge
that decision,” the finality requirement of Williamson
County is satisfied. See Hacienda Valley Mobile
Estates v. City of Morgan Hill, 353 F.3d 651, 657 (9th
Cir. 2003); see also Hall v. City of Santa Barbara, 833
F.2d 1270, 1281 n.28 (9th Cir. 1986) (to the extent that
Williamson County’s finality requirement applied, it
was satisfied, because the plaintiffs “have no further
administrative recourse available”), overruled on
other grounds by Yee v. City of Escondido, 503 U.S. 519
(1992).
*

*

*

By applying procedural-default rules to bar a
takings claim concerning an unquestionably final
decision, the panel majority’s decision imposes an

Appendix E-15
impermissible exhaustion requirement, not a finality
requirement. The result is to put takings claims back
into a second-class status, less than one year after the
Supreme Court had squarely put them on the same
footing as other constitutional claims. I respectfully
dissent from our failure to rehear this case en banc.

Appendix F-1
AMENDED IN BOARD
6/11/2013
FILE NO. 120669

ORDINANCE NO. 117-13

[Subdivision Code – Condominium Conversion
Impact Fee]
Ordinance amending the Subdivision Code, by
adding Section 1396.4, to adopt a condominium
conversion impact fee applicable to certain
buildings qualifying for participating but not
being selected or participating in the 2013 or
2012 condominium conversion lottery only that
would be permitted to convert during a sixseven
year period, and subject to specified
requirements, including lifetime leases for nonpurchasing tenants; adding Section 1396.5, to
suspend the annual condominium conversion
lottery until 2024 and resume said lottery under
specified circumstances tied to permanently
affordable
rental
housing
production;
amending Section 1396, to restrict future
condominium lotteries to buildings of no more
than four units with a specified number of
owner occupied units for three years prior to
the lottery and provide an exception for certain
five- and six-unit buildings to participate in the
lottery; and adopting environmental findings.
NOTE: Additions are single-underline italics
Times New Roman; deletions are strike
through italics Times New Roman. Board
amendment additions are doubleunderlined; Board amendment deletions
are strikethrough normal.

Appendix F-2
Be it ordained by the People of the City and
County of San Francisco:
Section 1. Findings. (a) The Planning Department
has determined that the actions contemplated in this
Ordinance are in compliance with the California
Environmental Quality Act (California Public
Resources Code sections 21000 et seq.). Said
determination is on file with the Clerk of the Board of
Supervisors in File No. 120669 and is incorporated
herein by reference.
(b) This Board finds that the condominium
conversion impact fee as set forth in this legislation is
an appropriate charge imposed as a condition of
property development, which in this case is the City’s
approval of a condominium conversion subdivision, a
discretionary development approval pursuant to the
San Francisco Subdivision Code and the California
Subdivision Map Act. Based on data, information, and
analysis in a Condominium Conversion Nexus
Analysis report prepared by Keyser Marston
Associates, Inc., dated January 2011, and the findings
of Planning Code Section 415.1 concerning the City’s
inclusionary affordable housing program, this Board
finds and determines that there is ample evidentiary
support to charge the impact fee set forth herein as it
relates to a subdivision map approval that allows the
conversion of existing dwelling units into
condominiums. Said impact feecharge also is lower
than the fee amount supported in the abovementioned
Nexus Analysis report. As a consequence the Board
finds that the amount of this charge is no more than
necessary to cover the reasonable costs of the
governmental activity and programs related to
condominium conversion. The Board further finds and

Appendix F-3
determines, that based on this evidence, the manner
in which these fees arethis charge is allocated and
assessed on a per unit cost for each unit converted to
a condominium bears a reasonable relationship to the
subdivision applicants’ burdens on the City that result
from the change in use and ownership status from a
dwelling unit within an unsubdivided property to a
separate interest in a condominium unit. A copy of the
report on the feescharge identified herein is in Clerk
of the Board of Supervisors File No. 120669 and is
incorporated herein by reference. The City
Controller’s Office has independently confirmed that
the fee amounts identified in said report remain valid.
This determination is on file with the Clerk of the
Board of Supervisors File No. 120669 and is
incorporated herein by reference.
(c)(1) The Board further finds that the present
backlog of existing applications for condominium
conversion under the existing 200-unit annual
condominium
conversion
lottery
process
in
Subdivision Code Article 9 (Conversions) extends well
over a decade. Indicative of this backlog,
approximately 700 tenancy-in-common (TIC) and
other owner-occupied buildings, containing 2,269
dwelling units, registered for the 2013 lottery
condominium conversion lottery in an effort to be
selected for the 200 units that were available. The
proposed expedited approval process for condominium
conversions (the “Expedited Conversion program”) is
intended as a one time adjustment to the backlog in
applications for conversions given the specific needs of
existing owners of tenancy-in-common units.
Therefore, the eExpedited cConversion program set
forth in this legislation’s proposed Section 1396.4 is
intended as the exclusive method for allocating

Appendix F-4
approvals for conversions of apartments and tenancyin-common buildings into condominiums for the entire
period that is established in the proposed Section
1396.5.
(2) The Expedited Conversion program that this
Ordinance creates will bring significant economic
value to owners who utilize it. According to the City
Controller’s April 2, 2013 Economic Impact Report,
condominium conversion “creates clear financial
advantages for owners of tenancies-in-common (TIC)
buildings.” In addition to the estimated 15% premium
gained by converting a TIC to a condominium, as
projected in the Keyser Marston Associates 2011
Nexus Analysis, the Controller’s report notes that
because State law does not otherwise allow rent
limitations on condominiums after the subdivider
sells them, future owners of these converted
condominiums after the rental limitation period
terminates “have the opportunity for greater rental
income than owners of TIC units, the vast majority of
which are subject to rent control.”
(3) Due to the present backlog of existing
applications, the Office of the Controller estimates
that owners of 1,730 of the units not selected in the
2013 lottery would pay the impact feecondominium
conversion charge and avail themselves of the sevenyear eExpedited cConversion program. The program
also permits TICs that did not enter the 2012 and
2013 lottery to convert, which could result in more
than 1,730 dwelling units taking advantage of the
eExpedited cConversion program. The number of
conversions is therefore anticipated to be well in
excess of the 200 unit per year allotment in the
existing lottery. The Ordinance balances the number

Appendix F-5
of units converted under this program in a relatively
short period of time by suspending the lottery until
the City’s affordable housing production replaces the
number of units converted under the eExpedited
cConversion program. The maximum number of years
of suspension of the lottery will be the number of
converted units divided by 200. Therefore, under the
suspension, there will be no net loss of the number of
converted units over time as compared to the existing
lottery. Conversions of apartments to condominiums
also results in the eviction of existing tenants in the
converted buildings because many tenants cannot
afford to purchase their units. A large number of
conversions under the eExpedited cConversion
program would magnify this impact and result in a
large number of tenants evicted into a very expensive
rental housing market. The Office of the Controller
estimates that tenants of these converted properties
would likely spend between $0.8 and $1.1 million
annually in higher rent alone due to displacement
and/or rent decontrol. Therefore, the Ordinance
balances this impact on existing tenants and the
effects of tenant displacement on the City in general
by requiring that applicants for the Expedited
Conversion program offer existing tenants a lifetime
lease. The abovementioned Controller’s report is on
file with the Clerk of the Board of Supervisors in File
No. 120669 and is incorporated herein by reference.
(3)(4) In addition, this legislation attempts to
integrate this process with the adoption of additional
controls on future conversions. This legislation does
not intend to affect in any way the conversion of 100%
owner-occupied two-unit buildings in accordance with
the terms of Subdivision Code Section 1359.

Appendix F-6
(d) As set forth in the Housing Element of the
General Plan, in particular Objective 3, it is the City’s
policy to preserve the existing supply of rent
controlled housing and to increase the production of
new affordable rental units. Policy 3.1 states that is
the City’s policy to “[p]reserve rental units, especially
rent controlled units, to meet the City’s affordable
housing needs.” Policy 4.4 states it is the City’s policy
to “[e]ncourage sufficient and suitable rental housing
opportunities, emphasizing permanently affordable
rental units wherever possible.” And, Policy 9.2
provides that it is city policy to “[c]ontinue
prioritization of preservation of existing affordable
housing as the most effective means of providing
affordable housing.” Therefore, the conversion of
rental housing into condominiums, without
replacement, results in the loss of existing rent
controlled housing contrary to public policy.
(e) In 2012, the voters of the City of San Francisco
approved Proposition C that proposed in part to fund
and produce 930,000 affordable rental housing units
over thirty years, establishing an annual baseline
production of approximately 300 net new affordable
housing units. The Board determines that this
legislation is compatible with the goals of Proposition
C and resumption of the condominium conversion
lottery is properly benchmarked in relationship to
new affordable housing production as contemplated in
Proposition C. Further, the Board finds that
Proposition C’s limitations on new affordable housing
fees were intended to apply to fees on new residential
construction projects and not to the condominium
conversion charges set forth in this Ordinance which
would be imposed only on existing residential

Appendix F-7
buildings that obtain a condominium subdivision and
involve no net increase in new housing units.
(f) It is the further intent of this legislation to
suspend future conversions of rental housing pending
the one for one replacement of units converted
through the eExpedited cConversion program beyond
the City’s net new annual baseline production and to
provide additional protections to tenants in buildings
to be converted as specified above.
(g) The Board finds that the rate of TIC creation
and demand for condominium conversions to date has
far exceeded the rate of allowable conversions under
existing law. The Board also finds that the
unsustainable growth of the TIC form of ownership
poses challenges and adverse consequences for which
many consumers are unprepared and that those
challenges are greater for larger building sizes.
However, increasing the number of allowable
conversions would impose a burden on the City’s
capacity to develop sufficient replacement rental
housing units and to assist displaced tenants.
Therefore, it is the intent of this legislation to reestablish the condominium lottery conversion process
on a more sustainable basis following the restart of
the lottery and to encourage long-term ownership in
smaller buildings.
Section 2. The San Francisco Subdivision Code is
hereby amended by adding Sections 1396.4 and
1396.5, to read as follows:

Appendix F-8
SEC. 1396.4. CONDOMINIUM CONVERSION
IMPACT FEE AND EXPEDITED CONVERSION
PROGRAM.
(a) Findings. The findings of Planning Code
Section 415.1 concerning the City’s inclusionary
affordable housing program are incorporated herein
by reference and support the basis for charging the fee
set forth herein as it relates to the conversion of
dwelling units into condominiums.
(b) Any building that: (1) participated in the 2013
or 2012 condominium conversion lottery, but was not
selected for conversion or (2) could have participated
in the 2013 condominium conversion lottery, but
elected not to do so, may bypass be exempted from the
annual lottery provisions of Section 1396 (the annual
lottery conversion limitation) if the building owners
for said building comply with Section 1396.3(g)(1) and
pay the condominium conversion impact fee subject to
the all the requirements of this Section 1396.4. In
additionNotwithstanding the foregoing, no property
or applicant subject to any of the prohibition on
conversions set forth in Section 1396.2(c), in
particular a property with the eviction(s) set forth in
Section 1396.2(b), is eligible for said bypass the
eExpedited cConversion processprogram under this
Section 1396.4. Eligible buildings as set forth in this
Section (b) may exercise their option to participate in
this fee program according to the following
requirements:
(c) Eligible buildings as set forth in Subsection (b)
may exercise their option to participate in this fee
program according to the following requirements:

Appendix F-9
(1) The applicant(s) for the subject building
shall pay the fee specified in Subsection (e) no later
than January 24, 2014 for the entire building.
(2) No later than the last business day before
July 25, 2014:
(i) DPW shall determined that the
applicant’s condominium conversion subdivision
application is complete, or
(ii) The application is deemed complete
by operation of law.
(3) The applicant shall obtain final and
effective tentative approval of the condominium
subdivision or parcel map no later than December 31,
2014.
(4) Any map application subject to a required
public hearing on the subdivision or a subdivision
appeal shall have the time limit set forth in
Subsection (c)(3) suspended until March 13, 2015.
(5) The Director of the Department of Public
Works is authorized to waive the time limit set forth
in Subsection (c)(3) as it applies to a particular
building due to extenuating or unique circumstances.
Such waiver may be granted only after a public
hearing and in no case shall the time limit extend
beyond July 24, 2015.
(1) Any building that participated in but was not
selected for the 2012 or 2013 condominium conversion
lottery consisting of (a) four units or less in which one
unit has been continuously occupied continuously by
one of the applicant owners of record for no less than
five years prior to April 15. 2013, or (b) buildings
consisting of five or six units in which 50 percent or

Appendix F-10
more of the units have been continuously occupied
continuously by the applicant owners of record for no
less than five years as of April 15, 2013, is eligible for
conversion under this Subsection. The applicant(s) for
the subject building seeking to convert under this
Subsection shall pay the fee specified in Subsection (e)
no later than January 24April 14, 2014 for the entire
building along with additional information as the
Department may require including certification of
continued eligibility; however, the deadline for an
applicant to pay the fee may be extended pursuant to
(i)(3) of this Section.
(2) Any building that participated in but was not
selected for the 2012 or 2013 condominium conversion
lottery consisting of (a) four units or less in which one
unit has been continuously occupied continuously by
one of the applicant owners of record for no less than
three years prior to April 15, 2014, or (b) buildings
consisting of five or six units in which 50 percent or
more of the units have been continuously occupied
continuously by the applicant owners of record for no
less than three years as of April 15, 2014, is eligible
for conversion under this Subsection. The applicant(s)
for the subject building may apply for conversion
under this Subsection on or after April 15, 2014 and
shall pay the fee specified in Subsection (e) no later
than January 23, 2015 along with additional
information as the Department may require including
certification of continued eligibility; however, the
deadline for an applicant to pay the fee may be
extended pursuant to (i)(3) of this Section.
(3) For
Additionally
Qualified
Buildings
consisting of (a) four units or less in which one unit
has been continuously occupied continuously by one of

Appendix F-11
the applicant owners of record for no less than six
years as of April 15, 2015 or (b) buildings consisting of
five or six units in which 50 percent or more of the
units have been continuously occupied continuously
by the applicant owners of record for no less than six
years as of April 15, 2015, the applicant(s) for the
subject building may apply for conversion under this
Subsection on or after April 15, 2015 and shall pay the
fee specified in Subsection (e) no later than
January 22, 2016 along with additional information
as the Department may require including certification
of continued eligibility.
(4) For
Additionally
Qualified
Buildings
consisting of (a) four units or less in which one unit
has been continuously occupied continuously by one of
the applicant owners of record for no less than six
years as of April 15, 2016, or (b) buildings consisting
of five or six units in which 50 percent or more of the
units have been continuously occupied continuously
by the applicant owners of record for no less than six
years as of April 15, 2016, the applicant(s) for the
subject building may apply for conversion under this
Subsection on or after April 15, 2016 and shall pay the
fee specified in Subsection (e) no later than
January 20, 2017 along with additional information
as the Department may require including certification
of continued eligibility.
(5) For
Additionally
Qualified
Buildings
consisting of (a) four units or less in which one unit
has been continuously occupied continuously by one of
the applicant owners of record for no less than six
years as of April 15, 2017, or (b) buildings consisting
of five or six units in which 50 percent or more of the
units have been continuously occupied continuously

Appendix F-12
by the applicant owners of record for no less than six
years as of April 15, 2017, the applicant(s) for the
subject building may apply for conversion under this
Subsection on or after April 15, 2017 and shall pay the
fee specified in Subsection (e) no later than
January 19, 2018 along with additional information
as the Department may require including certification
of continued eligibility.
(6) For
Additionally
Qualified
Buildings
consisting of (a) four units or less in which one unit
has been continuously occupied continuously by one of
the applicant owners of record for no less than six
years prior to April 15, 2018, or (b) buildings
consisting of five or six units in which 50 percent or
more of the units have been continuously occupied
continuously by the applicant owners of record for no
less than six years as of April 15, 2018, the
applicant(s) for the subject building may apply for
conversion under this Subsection on or after April 15,
2018 and shall pay the fee specified in Subsection (e)
no later than January 25, 2019 along with additional
information as the Department may require including
certification of continued eligibility.
(7) For
Additionally
Qualified
Buildings
consisting of (a) four units or less in which one unit
has been occupied continuously by one owner of record
for no less than six years prior to April 15, 2019, or
(b) buildings consisting of five or six units in which 50
percent or more of the units have been occupied
continuously by owners of record for no less than six
years as of April 15, 2019, the applicant(s) for the
subject building may apply for conversion under this
Subsection on or after April 15, 2019 and shall pay the
fee specified in Subsection (e) no later than

Appendix F-13
January 24, 2020 along with additional information
as the Department may require including certification
of continued eligibility. An Additionally Qualified
Building subject to Subsection 9(A) shall be eligible to
convert pursuant to this Subsection as long as there is
fully executed written agreement in which the owners
each have an exclusive right of occupancy to
individual units in the building to the exclusion of the
owners of the other units and 50 percent or more of
the units have been occupied continuously by owners
of record for no less than six years as of January 24,
2020.
(8) For applications for conversion pursuant to
Subsections (3)-(7) only, a unit that is “occupied
continuously” shall be defined as a unit occupied
continuously by an owner of record for the six year
period without an interruption of occupancy and so
long as the applicant owner(s) occupied the subject
unit as his/her principal place of residence for no less
than one year prior to the time of application.
Notwithstanding the occupancy requirements set
forth above, each building may have one unit where
there is an interruption in occupancy for no more than
a three month period that is incident to the sale or
transfer to a subsequent owner of record who occupied
the same unit. For any unit with an interruption of
occupancy, the applicant shall provide evidence to
establish to the satisfaction of the Department that
the period did not exceed three months.
(9) An “Additionally Qualified Building” within
the meaning of this Section is defined as a building in
which the initially eligible applicant owners of record
have a fully executed written agreement as of
April 15, 2013 in which the owners each have an

Appendix F-14
exclusive right of occupancy to individual units in the
building to the exclusion of the owners of the other
units; provided, however, that said agreement can be
amended to include new applicant owner(s) of record
as long as the new owner(s) satisfy the requirements
of Subsection (8) above. In addition to the
requirements listed in this Subsection (8), an
Additionally Qualified Building also includes a five or
six unit building that: (A) on April 15, 2013, had 50
percent or more of the units in escrow for sale as a
tenancy-in-common where each buyer shall have an
exclusive right of occupancy to an individual unit in
the building to the exclusion of the owners of other
units or (B) is subject to the requirements of Section
1396.2(f) and 50 percent or more of the units have
been occupied continuously by owners of record for no
less than ten years prior to the date of application as
set forth in Subsections (3)-(7).
(6) (7) (8)(10) The In addition to all other
provisions of this Section, the applicant(s) must meet
the following requirements applicable to Subdivision
Code Article 9, Conversions: Sections 1381, 1382,
1383, 1386, 1387, 1388, 1389, 1390, 1391(a) and (b),
1392, 1393, 1394, and 1395. In additionAlso, the
applicant(s) must certify that to the extent any tenant
vacates his or her unit after March 31, 2013 and
before recordation of the final parcel or subdivision
map, such tenant did so voluntarily or if an eviction or
eviction notice occurred it was not pursuant to
Administrative Code Sections 37.9(a)(8)-(14). If an
eviction has taken placed under 37.9(a)(11) or
37.9(a)(14) then the applicant(s) shall certify that the
original tenant reoccupied the unit after the
temporary eviction.

Appendix F-15
(11) If the Department finds that a violation of
this Section occurred prior to recordation of the final
map or final parcel map, the Department shall
disapprove the application or subject map. If the
Department finds that a violation of this Section
occurred after recordation of the final map or parcel
map, the Department shall take such actions as are
available and within its authority to address the
violation.
(c) Decisions and Hearing on the Application.
(1) The applicant shall obtain a final and
effective tentative map or tentative parcel map
approval for the condominium subdivision or parcel
map within one (1) year of paying the fee specified in
Subsection (e).
(2) No less than twenty (20) days prior to the
Department’s proposed decision on a tentative map or
tentative parcel map, the Department shall publish
the addresses of building being considered for
approval and post such information on its website.
During this time, any interested party may file a
written objection to an application and submit
information to DPWthe Department contesting the
eligibility of a building. In addition, the Department
may elect to hold a public hearing on said tentative
map or tentative parcel map to consider the
information presented by the public, other City
department, or an applicant. If the Department elects
to hold such a hearing it shall post notice of such
hearing and provide written notice to the applicant,
all tenants of such building, any member of the public
who submitted information to the Department, and
any interested party who has requested such notice.
In the event that an objection to the conversion

Appendix F-16
application is filed in accordance with this Subsection,
and based upon all the facts available to the
Department, the Department shall approve,
conditionally approve, or disapprove an application
and state the reasons in support of that decision.
(3) Any map application subject to a
Departmental public hearing on the subdivision or a
subdivision appeal shall have the time limit set forth
in this Subsection (c)(1) extended for another six (6)
months.
(4) The Director of the Department of Public
Works is authorized to waive the time limits set forth
in this Subsection (c)(1) as it applies to a particular
building due to extenuating or unique circumstances.
Such waiver may be granted only after a public
hearing and in no case shall the time limit extend
beyond two (2) years after submission of the
application.
(d) Should the subdivision application be denied
or be rejected as untimely in accordance with the dates
specified above, or the tentative subdivision map or
tentative parcel map disapproved, DPW the City shall
refund the entirety of the applicant’s fee specified in
Subsection (e).
(e) The fee amount is $20,000.00 per unit for all
buildings that participated in the lottery for the first
time in 2013 or seek to convert under Subsection (b)(1)
(6)(7). Said fee shall be adjusted annually in
accordance with the terms of Section 1315(f). Said fee
is reduced for each year the building has participated
in the condominium conversion lottery up to and
including the 2013 lottery in accordance with the
following formula:

Appendix F-17
(1) 2 years of participation, 20% fee reduction
per unit;
(2) 3 years of participation, 40% fee reduction
per unit;
(3) 4 years of participation, 60% fee reduction
per unit; and
(4) 5 or more years of participation, 80% fee
reduction per unit.
(f) For purposes of Section (e), a building’s
owner(s) shall get credit only for those years that it he
or she participated in the lottery even though such
building could have qualified for and participated in
other condominium conversion lotteries.
(g) Life Time Lease for Non-purchasing Tenants.
(1) No subdivider or subsequent condominium
unit owner shall refuse to renew a lease or extend a
rental agreement to anyAny application for
conversion under this Section shall include a
certification under penalty of perjury by the
applicants that allany non-purchasing tenant(s) in the
building have been offerredhas been given a written
offer to enter into a life time lease in the form and with
the provisions published and prescribed by DPWthe
Department in consultation with the Rent Board.
Such written offer for a life time lease shall be
executed by the owners of the building(s) and recorded
prior to at the time of Final Map or Parcel Map
approval. Any extended Any life time leases or rental
agreements made pursuant hereto shall expire only
upon the death or demise of the last such life-tenant
residing in the unit or the last surviving member of the
life-tenant’s household, provided such surviving
member is related to the life-tenant by blood, marriage,

Appendix F-18
or domestic partnership, and is either disabled,
catastrophically ill, or aged 62 or older at the time of
death or demise of any such life-tenant, or at such time
as the life-tenant(s) in the unit voluntarily vacates the
unit after giving due notice of such intent to vacate.
(2) (A) Each lease shall contain a provision
allowing the tenant to terminate the lease and vacate
the unit upon 30 days’ notice. Rent and a provision
that rent charged during the term of any extendedthe
lease or rental agreement pursuant to the provisions
of this Section shall not exceed the rent charged at the
time of filing of the application for conversion, plus any
increases proportionate to the increases in the
residential rent component of the “Bay Area Cost of
Living Index, U.S. Dept. of Labor,” provided that the
rental increase provisions of this Section shall be
operative only in the absence of other applicable rent
increase or arbitration laws. This Section
(B) The lease also shall state that it shall not
alter or abridge the rights or obligations of the parties
in performance of their covenants, including but not
limited to the provision of services, payment of rent or
the obligations imposed by Sections 1941, 1941.1, and
1941.2, 1941.3, and 1941.4 of the California Civil
Code. There and that there shall be no decrease in
dwelling unit maintenance or other services
historically provided to such units and such lifetenants. A binding and recorded agreement The
provision of a lifetime lease pursuant to this
Subsection shall be a condition imposed on each
tentative parcel or tentative subdivision map subject
to this Subsection 1396.4(g). Binding and recorded
agreements between the tenant(s) and the property
owner(s) and between the City and the property

Appendix F-19
owner(s) concerning this requirement shall be a
tentative map condition imposed on each parcel or
subdivision map subject to this Subsection 1396.4(g).
(C) The lease shall also include the following
language:
Tenant agrees that this Lease shall be subject and
subordinate at all times to (i) all ground leases or
underlying leases that may now exist or hereafter be
executed affecting the Real Property or any portion
thereof; (ii) the lien of any mortgage, deed of trust,
assignment of rents and leases or other security
instrument (and any advances thereunder) that may
now exist or hereafter be executed in any amount for
which the Real Property or any portion thereof, any
ground leases or underlying leases or Landlord’s
interest or estate therein, is specified as security; and
(iii) all modifications, renewals, supplements,
consolidations and replacements thereof, provided in
all cases the mortgagees or beneficiaries named in
mortgages or deeds of trust hereafter executed or the
assignee of any assignment of rents and leases
hereafter executed to recognize the interest and not
disturb the possession, use and enjoyment of Tenant
under this Lease, and, in the event of foreclosure or
default, the lease will continue in full force and effect
by operation of San Francisco Administrative Code
Chapter 37, Section 37.9D, and the conditions
imposed on each parcel or subdivision map pursuant
to Section 1396.4(g), as long as Tenant is not in default
under the terms and conditions of this Lease. Tenant
agrees to execute and deliver, upon demand by
Landlord and in the form requested by Landlord, any
additional reasonable documents evidencing the
priority or subordination of this Lease with respect to

Appendix F-20
any such ground leases, underlying leases, mortgages,
deeds of trust, assignment of rents and leases or other
security instruments. Subject to the foregoing, Tenant
agrees that Tenant shall be bound by, and required to
comply with. the provisions of any assignment of rents
and leases with respect to the Building.
(3) The Department shall impose the following
tentative map conditions on each parcel and
subdivision map subject to this Subsection 1396.4(g)
and require that the conditions be satisfied prior to
Final Subdivision Map or Parcel Map approval:
(A) the property owner(s) of the building provide a
written offer for a life time lease pursuant to this
Subsection to the tenant(s) in the building and record
such offer against the building’s title, (B) at the time
the tenant(s) accepts the life time lease offer, and even
if such acceptance occurs after map approval, a
binding agreement between the tenant(s) and the
property owner(s) shall be executed and recorded
against the property’s title, and (C) a binding
agreement between the City and the property
owner(s) concerning the requirements of this
Subsection be recorded against the property’s title.
For purposes of this Subsection, the Board of
Supervisors delegates authority to the DPW Director,
in consultation with the Mayor’s Office of Housing, to
enter in said agreement on behalf of the City and
County of San Francisco.
(2)(4) If the owner(s) of a building subject to the
life time lease provisions of this Section 1396.4(g)
enters into any contract or option to sell or transfer
any unit that would be subject to the lifetime lease
requirements or any interest in any unit in the
building that would be subject to the lifetime lease

Appendix F-21
requirements at any time between the initial
application and recording of the final subdivision map
or parcel map. said contract or option shall be subject
to the following conditions: (a) the contract or option
shall include written notice that the unit shall be
subject to the life time lease requirements of
Subdivision Code Section 1396.4(g), (b) prior to final
execution of any such contract or option, the owner(s)
shall record a notice of restrictions against the
property that specifically identifies the unit
potentially subject to the life time lease requirements
and specifies the requirements of the life time lease as
set forth in Section 1396.4(g)(1), and (c) the recorded
notice of restrictions shall be included as a note on the
final subdivision map or parcel map. Prior to approval
of a final subdivision map or parcel map, the
applicant(s) shall certify under penalty of perjury to
the Department that he, she, or they have complied
with the terms of this Subsection as it applies to a
building. Failure to provide this certification from
every current owner of a building shall result in
disapproval of the map. The content of the notices and
certifications required by this Subsection shall comply
with the instructions and procedures developed by the
Department.
(h) In recognition of the rental requirements of
Section (g), the fee for each unit in which a nonpurchasing tenant resides at the time specified in
Section (g) who is offered a life time lease and is
unrelated by blood, marriage, or domestic partnership
to any owner of the building shall be refunded to the
subdivider under the following formula:
(1) One unit, 10% fee reduction for such unit;
(2) Two units, 20% fee reduction for each unit;

Appendix F-22
(3) Three units, 30% fee reduction for each unit.
(i) Upon confirmation of compliance with the
rental requirement, DPW or the City department in
possession of the fee revenue shall refund the amount
specified in Section (h) to the subdivider and have all
remaining fee revenues transferred, in the following
percentage allocations: 25% to the Citywide Affordable
Housing Fund Mayor’s Office Home Ownership
Assistance
Loan
Fund
City’s
Housing
StabilizationMayor’s Office of Housing’s program for
small site acquisition to purchase market rate housing
and convert it to affordable housing and 75% to the
Citywide Affordable Housing Fund for the purpose of
creating or preserving expanding affordable housing
opportunities for affordable to low or moderate income
households in San Francisco, including, but not
limited to, expanding public housing opportunities.
(j) Waiver or reduction of fee based on absence of
reasonable relationship or deferred payment based
upon limited means.
(1) A project applicant of any project subject to the
requirements in this Section may appeal to the Board
of Supervisors for a reduction, adjustment, or waiver
of the requirements based upon the absence of any
reasonable relationship or nexus between the impact of
development and the amount of the fee charged or for
the reasons set forth in Subsection (2) below, a project
applicant may request a waiver from the Board of
Supervisors.
(2) Any appeal of waiver requests under this clause
shall be made in writing and filed with the Clerk of the
Board no later than 15 days after the date the sponsor
is required to pay and has paid to the Treasurer the fee

Appendix F-23
as required in this Section. The appeal shall set forth
in detail the factual and legal basis for the claim of
waiver, reduction, or adjustment. The Board of
Supervisors shall consider the appeal at the hearing
within 60 days after the filing of the appeal. The
appellant shall bear the burden of presenting
substantial evidence to support the appeal, including
comparable technical information to support
appellant’s position. If a reduction, adjustment, or
waiver is granted, any change of use or scope of the
project shall invalidate the waiver, adjustment or
reduction of the fee. If the Board grants a reduction,
adjustment or waiver, the Clerk of the Board shall
promptly transmit the nature and extent of the
reduction, adjustment or waiver to the Treasurer and
Department of Public Works.
(3) A project applicant may apply to the
Department of Public Works for a deferral of payment
of the fee described in Subsection (e) for the period
that the Department completes its review and until
the application for expedited conversion is approved,
provided that the applicant satisfies each of the
following requirements: (i) the applicant resided in his
or her unit in the subject property as his or her
principle place of residence for not less than three
years and (ii) that for the twelve months prior to the
application, the applicant resided in his or her unit in
the subject property as his or her principle place of
residence and the applicant’s household income was
less than 120% of median income of the City and
County of San Francisco as determined by the Mayor’s
office of Housing.
(k) Any building that participates in the fee
program set forth herein shall automatically be

Appendix F-24
ineligible to participate in the 2014 condominium
conversion lottery. DPW The City shall refund to the
applicant any fees paid to participate in the 2014
lottery and shall remove any lottery tickets associated
with the subject building from the lottery drawing.
(l) Buildings that convert pursuant to this Section
shall have no effect on the terms and conditions of
Section 1341A, 1385A, or 1396 of this Code.
SEC. 1396.5. SUSPENSION OF THE
LOTTERY
PENDING
PRODUCTION
OF
REPLACEMENT UNITS FOR EXPEDITED
CONVERSION UNITS.
(a) Within twelve months after issuing tentative
or tentative parcel map approval for the last
conversion under Section 1396.4 or December 29,
2023, whichever is earlier, the Department shall
publish a report stating the total number of units
converted under the Expedited Conversion program
and every twelve months thereafter until the
Expedited Conversion program is completed.
(b) No later than April 15 of each year until the
termination of the suspension period, the Mayor’s
Office of Housing shall publish a report stating the
total number of permanently, affordable rental
housing produced in San Francisco and the
“Conversion Replacement Units” produced in the
previous calendar year and a cumulative total of such
housing produced in preceding years during the
tracking period. For purposes of this Subsection, the
Mayor’s Office of Housing shall have the authority to
determine what type and form of housing constitutes
permanently affordable rental housing that has been
produced.

Appendix F-25
(c) The Department shall not accept an
application for the conversion of residential units
under Section 1396 nor conduct a lottery under this
Article prior to January 1. 2024. Thereafter, the
lottery shall resume upon the earlier of the following:
(1) until the first February following the Mayor’s
Office of Housing report pursuant to Subsection (b)
showing that the total number of Conversion
Replacement Units produced in the City of San
Francisco exceedsed the total number of units
converted as identified in the Department’s report
prepared pursuant to Subsection (a); under Section
1396.4(b)(1)-(6) and in no event shall it conduct a
lottery prior to January 1 , 2024; provided however,
that the total period of suspension of the lottery shall
not exceedor (2) completion of the “Maximum
Suspension Period” as defined below.
(d) “Conversion Replacement Units” in any year
shall be determined by subtracting 300 from the total
number of permanently affordable rental units that
the City produced in that year starting on January 1,
2014.
(e) The “Maximum Suspension Period” shall be
the number of years calculated by dividing the total
number of units approved for conversion under
Section 1396.4(b)(1)-(6)(7) (the Expedited Conversion
program) divided by 200 and rounded to the nearest
whole number with the year 2014 as the starting
point. For example, if 2400 units have been converted
under Section 1396.4(b)(1)-(6)(7), then the maximum
suspension period would be 12 years and run until
2026expire on December 31, 2025.

Appendix F-26
Section 3. The San Francisco Subdivision Code is
hereby amended by amending Section 1396, to read as
follows:
SEC.
1396.
LIMITATION.

ANNUAL

CONVERSION

(a) This Section governing annual limitation
shall apply only to conversation of residential units.
This Section also is subject to the limitations
established by Section 1396.5’s suspension of the
lottery.
(b) Applications for conversion of residential
units, whether vacant or occupied, shall not be
accepted by the Department of Public Works, except
that a maximum of 200 units as selected yearly by
lottery by the Department of Public Works from all
eligible applicants, may be approved for conversion
per year for the following categories of buildings:
(a) (1) Buildings consisting of four units or less in
which one at least three of the units has have been
occupied continuously by one of the applicant owners
of record as their principle place of residence for three
years prior to the date of registration for the lottery as
selected by the Director.;
(2) Buildings consisting of three units in which at
least two of the units have been occupied continuously
by the applicant owners of record as their principle
place of residence for three years prior to the date of
registration for the lottery as selected by the Director;
(3) Buildings consisting of two units in which at
least one unit has been occupied continuously by the
applicant owner of record as his or her principle place
of residence for three years prior to the date of

Appendix F-27
registration for the lottery as selected by the Director;
or
(b) Buildings consisting of six units or less in
which 50 percent or more of the units have been
occupied continuously by the applicant owners of
record for three years prior to the date of registration
for the lottery as selected by the Director; or
(e) (4) Buildings consisting of five or six units that
were subject to the requirements of Section 1396.2(f)
on or before April 15. 2013 where (A) no further
evictions as set forth in Section 1396.2 have occurred
in the building after April 15, 2013, (B) the building
and all applicants first satisfied all the requirements
for conversion under Section 1396.2(f) after
January 24, 2020 and before resumption of the lottery
under in accordance with the terms of Section 1396.5;
and (C) 50 percent or more of the units have been
occupied continuously by owners of record as their
principle place of residence for ten years prior to the
date of registration for the lottery as selected by the
Director. Applicants for such buildings must apply for
the lottery within five years of the resumption of the
lottery under Section 1396.5(c) and remain eligible
until selected;
(5) If the Expedited Conversion program under
Section 1396.4 has been suspended until 2024 as a
result of a successful lawsuit against the City and
County of San Francisco challenging Section 1396.4(g)
or 1396.5: (A) buildings consisting of five or six units
that participated in but were not selected for the 2012
or 2013 condominium conversion lottery in which 50
percent or more of the units have been occupied
continuously by the applicant owners of record for no
less than six years prior to the date of registration for

Appendix F-28
the lottery as selected by the Director or (B) buildings
consisting of five or six units in which: (i) 50 percent
or more of the units have been occupied continuously
by the applicant owners of record for no less than six
years prior to the date of registration for the lottery as
selected by the Director and (ii) the eligible applicant
owners of record have a fully executed written
agreement as of April 15, 2013 in which the owners
each have an exclusive right of occupancy to
individual units in the building to the exclusion of the
owners of the other units. Applicants for buildings
identified in this Subsection must first apply for the
lottery within five years of the resumption of the
lottery under Section 1396.5(c) and remain eligible
until selected: or
(5)(6) Community apartments as defined in
Section 1308 of this Code, which, on or before
December 31, 1982, met the criteria for community
apartments in Section 1308 of this Code and which
were approved as a subdivision by the Department of
Public Works on or before December 31, 1982, and
where 75 percent of the units have been occupied
continuously by the applicant owners of record for
three years prior to the date of registration for the
lottery as selected by the Director.
(c) The conversion of a stock cooperative as
defined in Section 1308 of this Code to condominiums
shall be exempt from the annual limitation imposed
on the number of conversions in this Section and from
the requirement to be selected by lottery where 75
percent of the units have been occupied for the lottery
as selected by the Director.
(d) No application for conversion of a residential
building submitted by a registrant shall be approved

Appendix F-29
by the Department of Public Works to fill the unused
portion of the 200-unit annual limitation for the
previous year.
(e)(f) (1) Any
applicantapplication
for
a
condominium conversion submitted after being
selected in the lottery must meet the following
requirements applicable to Subdivision Code Article
9, Conversions: Sections 1381, 1382, 1383, 1386, 1387,
1388, 1389, 1390, 1391(a) and (b), 1392, 1393, 1394,
and 1395.
(2) Any building subject to Section 1396.2 shall
have all applicant(s) satisfy all the requirements for
conversion under Section 1396.2(f) in order be eligible
to convert pursuant to this Section 1396; provided,
however, that any building subject to the prohibition
on conversion under Section 1396.2, in particular a
property with the eviction(s) set forth in Section
1396.2(b), is ineligible for conversion.
(3)(A) In addition, the applicant(s) mustshall
certify that to the extent any tenant vacated his or her
unit after March 31, 2013within the seven years prior
to the date of selection inregistration for the lottery as
selected by the Director and before recordation of the
final parcel or subdivision map, such tenant did so
voluntarily or if an eviction or eviction notice occurred
it was not pursuant to Administrative Code Sections
37.9(a)(8)-(14) unless such eviction or eviction notice
complied with the requirements of Subsections (B)-(D)
below.
(B) If an eviction has taken placedthe evicting
owner(s) recovered possession of the unit under
Administrative Code Sections 37.9(a)(11) or
37.9(a)(14), then the applicant(s) shall certify that the

Appendix F-30
original tenant reoccupied or was given an
opportunity to reoccupy the unit after the temporary
eviction.
(C) If the evicting owner(s) recovered
possession of the unit under Administrative Code
Section 37.9(a)(10), then the applicant(s) shall certify
that the Department of Building Inspection required
the unit be demolished or permanently removed from
housing use pursuant to a Notice of Violation or
Emergency Order or similar notice, order, or act; all
the necessary permits for demolition or removal were
obtained; that the evicting owner(s) complied in full
with Administrative Code Section 37.9(a)(10) and (c);
and that an additional unit or replacement unit was
not constructed in the building after the demolition or
removal of the unit previously occupied by the evicted
tenant.
(D) If the evicting owner(s) recovered
possession of a unit under Administrative Code
Section 37.9(a)(8), then the applicants shall certify
that: (i) only one unit in the building was the subject
of such eviction during the seven year period, (ii) any
surviving owner or relative named as the intended
resident of the unit in the Section 37.9(a)(8) eviction
notice also is presently an owner applying for the
conversion of the same unit, and (iii) the subject
applicant owner has occupied the unit continuously as
his or her principle residence for three years prior to
the date of registration for the lottery as selected by
the Director.
(f) The Department shall review all available
records, including eviction notices and records
maintained by the Rent Board for compliance with
Subsection (e). If the Department finds that a

Appendix F-31
violation of Subsection (e) occurred prior to
recordation of the final map or final parcel map, the
Department shall disapprove the application or
subject map. If the Department finds that a violation
of Subsection (e) occurred after recordation of the final
map or parcel map, the Department shall take such
actions as are available and within its authority to
address the violation.
Section 4. Uncodified. Notwithstanding the
condominium conversion lottery selection provisions
of Subdivision Code Section 1396 and 1396.3 or the
other terms of this legislation, the most senior class of
buildings participating but not being selected in the
2013 condominium lottery may apply for a
condominium conversion subdivision on or after
January 1, 2014 but before December 31, 2014 subject
to the following: (1) the buildings and applicants shall
satisfy all of the eligibility requirements necessary to
participate in the lottery as set forth in Sections 1396
and 1396.3 in effect immediately prior to the effective
date of this legislation and (2) the applicants shall
satisfy all other applicable terms of Subdivision Code
Article 9 (Conversions). Any buildings that apply
under the process set forth in this uncodified Section
are explicitly exempt from the requirements of
Sections 1396.4, 1396.5, and 1396 as set forth in this
legislation. Any building eligible to convert to
condominiums: (a) under this Section 4, (b) after being
selected for conversion in the 2013 condominium
conversion lottery, or (c) that satisfies the
requirements of Section 1359, is excluded from any of
the terms of Section 7 below, specifically any
limitation or prohibition of any kind concerning
application submission, review, and approval for a
parcel or subdivision map.

Appendix F-32
Section 5. Effective Date. This ordinance shall
become effective 30 days from the date of passage.
Section 456. This section is uncodified. In
enacting this Ordinance, the Board intends to amend
only those words, phrases, paragraphs, subsections,
sections, articles, numbers, punctuation, charts,
diagrams, or any other constituent part of the
Subdivision Code that are explicitly shown in this
legislation as additions, deletions, Board amendment
additions, and Board amendment deletions in
accordance with the “Note” that appears under the
official title of the legislation.
Section 67. Suspension of this OrdinanceEffect of
Litigation. (a) In the event that there is a lawsuit
against the City and County of San Francisco filed in
any court challenging any part of this legislation or
the validity of any lifetime lease entered into pursuant
to this legislation Subsection 1396.4(g) or Section
1396.5 or any obligation on the part of any property
owner under Section 1396.4(g), then upon the service
of such lawsuit upon the City and County of San
Francisco, the Expedited Conversion program
described in Section 1396.4 will be suspended as set
forth below unless and until either (1) there is a final
judgment in the lawsuit in all courts and the validity
of this legislation in its entiretythe challenged
provision(s) specified above is upheld or (2) the
suspension of the lottery through January 1. 2024 as
mandated by Section 1396.5 is completed.
(b) Legal Challenge to Section 1396.5 During any
such suspension of the Expedited Conversion program
pursuant to this Subsection based on a legal challenge
to Section 1396.5, anythe Department, upon service of
the lawsuit, shall not accept or approve any

Appendix F-33
application for conversion under the program. After
180 days following service of the lawsuit, the
Department shall not issue any tentative parcel map
or tentative map approval for conversion and shall
deny any application that has not obtained such
approval. If an owner(s) obtained a final and effective
tentative parcel map or tentative map approval on or
prior to the 180th day following service of the lawsuit,
then that applicant may proceed to final parcel map
or final subdivision map approval and recordation of
the subdivision map. At any time during a suspension
of the Expedited Conversion program, any applicant
may seek a refund of the condominium conversion
application and condominium conversion impact fees
and the provisions of Section 1396 in effect on
April 15, 2015 shall be operative. Upon a request for
an application fee refund, the reviewing City
Departments shall deduct incurred costs based on
time and materials expended and shall refund any
remaining portion of the application fee(s).
(c) Legal Challenge to Section 1396.4(g)’s Property
Owner Obligations. During a suspension of the
Expedited Conversion program pursuant to this
Subsection based on a legal challenge to any
obligation on the part of any property owner under
Section 1396.4(g), the Department, upon service of the
lawsuit, shall not accept or approve any application
for conversion under the program for a building with
a unit occupied by a non-owning tenant(s). If an
owner(s) obtained a final and effective tentative parcel
map or tentative map approval on or prior to the
service of the lawsuit, then that applicant may
proceed to final parcel map or final subdivision map
approval and recordation of the subdivision map.
Notwithstanding the effects of a suspension of the

Appendix F-34
Expedited Conversion program pursuant to this
Subsection described above and the terms of
Subsection (e), the Department shall continue to
accept, tentatively approve, and finally approve any
application for a conversion pursuant to the
requirements of the Expedited Conversion program
for any building that has no units occupied by a nonowning tenant(s). At any time during a suspension of
the Expedited Conversion program, any applicant
may seek a refund of the condominium conversion
application and condominium conversion impact fees
and the provisions of Section 1396 in effect on
April 15, 2015 shall be operative. Upon a request for
an application fee refund, the reviewing City
Departments shall deduct incurred costs based on
time and materials expended and shall refund any
remaining portion of the application fee(s).
(d) Legal Challenge to both Section 1396.5 and
Section 1396.4(g)’s Property Owner Obligations.
During a suspension of the Expedited Conversion
program pursuant to this Subsection based on a legal
challenge as identified in both Subsection (b) and (c),
the Department, upon service of the lawsuit. shall not
accept or approve any application for conversion
under the program. If an owner(s) obtained a final and
effective tentative parcel map or tentative map
approval on or prior to service of the lawsuit, then that
applicant may proceed to final parcel map or final
subdivision map approval and recordation of the
subdivision map. At any time during a suspension of
the Expedited Conversion program, any applicant
may seek a refund of the condominium conversion
application and condominium conversion fees. Upon a
request for an application fee refund, the reviewing
City Departments shall deduct incurred costs based

Appendix F-35
on time and materials expended and shall refund any
remaining portion of the application fee(s).
(e) Upon the completion of the suspension of the
Expedited Conversion period the suspended
Expedited Conversion program described in Section
1396.4 shall resume as if no suspension had occurred.
Applicants with suspended applications may resubmit
their applications along with all required fees and
shall be considered in the same position as they had
at the time of the suspension. The Department shall
treat the time periods described in Section
1396.4(b)(1)-(7) as having been tolled during the time
of suspension of the Expedited Conversion program.
(f) Effect of Successful Lawsuit against the City,
Board of Supervisors hearing. If there is a final
judgment in the lawsuit in all courts and the
challenged provision(s) specified in this Section are
deemed invalid in whole or in part, the Expedited
Conversion program set forth in Section 1396.4 shall
terminate except for those particular buildings
authorized to convert pursuant to Subsection (b), (c),
or (d) and the condominium conversion lottery shall be
suspended in its entirety until its resumption after
January 1, 2024. Upon a court’s final judgment in the
lawsuit in all courts that the challenged provision(s)
specified in this Section are deemed invalid in whole
or in part, the City Attorney shall promptly notify the
Clerk of the Board of Supervisors of such judgment.
Upon receipt of this notice, the Clerk shall schedule a
public hearing(s) before the full Board or an
appropriate committee of the Board, based on
consultation with the President of the Board of
Supervisors. The purpose of such hearing(s) shall be
to provide a forum for public dialogue and shall

Appendix F-36
address, but not be limited to, consideration of
revisions to the condominium conversion process
consistent with the court’s findings, exploration of
alternative condominium conversion policies that
seek to balance the often competing interests of the
City, property owners, prospective owners, and
tenants; discussion of the benefits and burdens as well
as the distributive impacts of a citywide condominium
conversion process and affordable housing production
and opportunities; and concepts that support and
balance the goal of homeownership with protection of
rental properties and their tenants.
APPROVED AS TO FORM:
DENNIS J. HERRERA, City Attorney
By: s/ John D. Malamut
John D. Malamut
Deputy City Attorney

Appendix F-37
City and County of San Francisco
Tails
Ordinance
File Number: 120669 Date Passed: June 18, 2013
Ordinance amending the Subdivision Code, by adding
Section 1396.4, to adopt a condominium conversion fee
applicable to certain buildings that would be
permitted to convert during a seven year period, and
subject to specified requirements, including lifetime
leases for non-purchasing tenants; adding Section
1396.5, to suspend the annual condominium
conversion lottery until 2024 and resume said lottery
under specified circumstances tied to permanently
affordable rental housing production; amending
Section 1396, to restrict future condominium lotteries
to buildings of no more than four units with a specified
number of owner occupied units for three years prior
to the lottery and provide an exception for certain fiveand six-unit buildings to participate in the lottery; and
adopting environmental findings.
January 28, 2013 Land Use and Economic
Development Committee – AMENDED, AN
AMENDMENT OF THE WHOLE BEARING
NEW TITLE
January 28, 2013 Land Use and Economic
Development Committee – CONTINUED AS
AMENDED
February 25, 2013 Land Use and Economic
Development Committee – CONTINUED
March 11, 2013 Land Use and Economic
Development Committee – CONTINUED

Appendix F-38
March 25, 2013 Land Use and Economic
Development Committee – CONTINUED
April 15, 2013 Land Use and Economic
Development Committee – AMENDED, AN
AMENDMENT OF THE WHOLE BEARING
NEW TITLE
April 15, 2013 Land Use and Economic
Development Committee – CONTINUED AS
AMENDED
April 22, 2013 Land Use and Economic
Development Committee – RECOMMENDED
May 07, 2013 Board of Supervisors – REREFERRED
Ayes: 11 – Avalos, Breed, Campos, Chiu,
Cohen, Farrell, Kim, Mar, Tang, Wiener and
Yee
May 13, 2013 Land Use and Economic
Development Committee – CONTINUED
May 20, 2013 Land Use and Economic
Development Committee – AMENDED, AN
AMENDMENT OF THE WHOLE BEARING
NEW TITLE
May 20, 2013 Land Use and Economic
Development Committee – DUPLICATED AS
AMENDED
May 20, 2013 Land Use and Economic
Development Committee – CONTINUED AS
AMENDED
June 03, 2013 Land Use and Economic
Development Committee – RECOMMENDED

Appendix F-39
June 11, 2013 Board of Supervisors – AMENDED,
AN AMENDMENT OF THE WHOLE BEARING
NEW TITLE
Ayes: 8 – Avalos, Breed, Campos, Chiu,
Cohen, Kim, Mar and Yee
Noes: 3 – Farrell, Tang and Wiener
June 11, 2013 Board of Supervisors – PASSED
ON FIRST READING AS AMENDED
Ayes: 8 – Avalos, Breed, Campos, Chiu,
Cohen, Kim, Mar and Yee
Noes: 3 – Farrell, Tang and Wiener
June 18, 2013 Board of Supervisors – FINALLY
PASSED
Ayes: 8 – Avalos, Breed, Campos, Chiu,
Cohen, Kim, Mar and Yee
Noes: 3 – Farrell, Tang and Wiener
File No. 120669
I hereby certify that the foregoing
Unsigned Mayor Ordinance was
FINALLY PASSED on 6/18/2013 by
the Board of Supervisors of the
City and County of San Francisco.
s/ Angela Calvillo
Angela Calvillo
Clerk of the Board
Unsigned
Mayor

June 28, 2013
Date Approved

Appendix F-40
I hereby certify that the foregoing ordinance, not
being signed by the Mayor within the time limit as set
forth in Section 3.103 of the Charter, or time waived
pursuant to Board Rule 2.14.2, became effective
without his approval in accordance with the provision
of said Section 3.103 of the Charter or Board Rule
2.14.2.
s/ Angela Calvillo
Angela Calvillo
Clerk of the Board

Appendix G-1
Paul F. Utrecht (CA Bar No. 118658) Filed 6/26/2017
Utrecht & Lenvin, LLP
109 Stevenson Street, 5th Floor
San Francisco, CA 94105
Phone: (415) 357-0600
Email: putrecht@ullawfirm.com
Attorney for Plaintiffs
Peyman Pakdel and Sima Chgini
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF CALIFORNIA
SAN FRANCISCO DIVISION
PEYMAN PAKDEL and
SIMA CHEGINI,

Case No.: 3:17-cv-03638

Plaintiffs, COMPLAINT FOR
VIOLATION OF
v.
FEDERAL CIVIL
CITY AND COUNTY
RIGHTS UNDER 42
OF SAN FRANCISCO,
U.S.C. §1983 AND
a Chartered California
CALIFORNIA STATE
City and County; SAN
LAW (CAL. GOV’T
FRANCISCO BOARD
OF SUPERVISORS; an CODE §7060 – 7060.7,
CAL. CIVIL CODE
elected body of the City
§1954.52, CAL.
and County of
CONST. ART. I, §1)
San Francisco;
SAN FRANCISCO
DEPARTMENT OF
PUBLIC WORKS, a
department of the City
and County of San

Appendix G-2
Francisco; and DOES 125 inclusive,
Defendants.

INTRODUCTION
1. Plaintiffs Peyman Pakdel and Sima Chegini
bring this complaint for relief against the City and
County of San Francisco due to its enactment of
legislation that illegally and unconstitutionally
requires them to enter into a lifetime lease with their
tenant after conversion of their property into a
condominium.
2. The Fifth Amendment to the United States
Constitution prohibits local governments from
compelling property owners, like plaintiffs, to offer or
continue to offer residential real property for lease
when the owners or their immediate family wish to
use it as their home. In the present case, plaintiffs
chose to rent their home temporarily because of their
out-of-state residence, but expected to regain
possession of their home when they retired. Yet, the
City has recently enacted Ordinance 117-13 (the
“Ordinance”) that punishes those who lawfully seek to
convert property into a condominium by forcing them
to give their non-owning tenants lifetime leases,
thereby eliminating their fundamental right to reside
in their own homes.
3. There is no income requirement to be eligible
for a lifetime lease. Under the Ordinance, rich tenants
as well as low-income ones, are entitled to a lifetime
lease. The Ordinance thus effects a blatant transfer of
wealth from some private citizens to others, without
regard to whether there is a need. As such, the

Appendix G-3
Ordinance does not advance the purpose of providing
housing to low-and moderate-income households,
which the Ordinance cites as its basis. In fact, the
lifetime lease provisions of the Ordinance often have
an effect opposite to providing affordable housing for
low and moderate income households. Many tenancyin-common owners affected by the Ordinance are
single unit owners whose business is not renting. As
reported in the San Francisco Chronicle, Nevius, Law
Change Means Owners of Mission Unit Can’t Move
Back Home (February 4, 2015), the Ordinance can
protect those with means, while barring those in need,
from returning to their homes.
4. As applied to plaintiffs, the lifetime lease
mandated by the Ordinance takes property for a
private purpose. To the extent the Ordinance serves a
public purpose, the provisions unconstitutionally take
property, unconstitutionally function as a condition
that is unrelated and Violation of California State
Law disproportionate to any impact arising from the
potential withdrawal of rental units, unreasonably
seize property and impose an impermissible burden
on the plaintiffs’ Ellis Act, privacy and common law
property rights. Consequently, the Ordinance violates
the Public Use Clause, Takings Clause, Equal
Protection Clause, Due Process Clause and Fourth
Amendment of the United States Constitution, the
unconstitutional conditions doctrine, the Ellis Act and
Art. 1, § 1 of the California constitution. The plaintiffs
are therefore entitled to damages and/or equitable
relief under 42 U.S.C. § 1983, the Declaratory
Judgment Act and California law, including a
preliminary injunction.

Appendix G-4
THE PARTIES
5. Plaintiffs Peyman Pakdel and Sima Chegini
are citizens of the State of Ohio. They owned a tenancy
in common interest providing for occupancy of one
unit in a 6-unit building located at 1170-1180 Green
Street, San Francisco, California (the “Property”),
which was recently converted into condominiums. The
Property is subject to the Ordinance.
6. Defendant City and County of San Francisco
is a political subdivision of the State of California, and
the local governing authority in San Francisco. The
City enacted the Ordinance challenged by this
lawsuit. The City is entitled to sue and be sued, and is
constrained by the laws of the United States and the
State of California, including the United States
Constitution, 42 U.S.C. § 1983, the Ellis Act and the
California Constitution.
7. Plaintiffs are informed and believe,
respondents and defendants CITY AND COUNTY OF
SAN FRANCISCO, a Chartered California City and
County,
SAN
FRANCISCO
BOARD
OF
SUPERVISORS, an elected body of the City and
County of San Francisco, SAN FRANCISCO
DEPARTMENT OF PUBLIC WORKS, a department
of the City and County of San Francisco (the “DPW”)
and DOES 1-25, inclusive (collectively the “City”), are
now, and at all times herein mentioned in this petition
and complaint have been, organized and existing
under the Constitution and Laws of the State of
California and under the City of San Francisco’s
charter. At all times herein mentioned, each of the
respondents were agents of the other and were acting
within the course and scope of that agency.

Appendix G-5
JURISDICTION AND VENUE
8. This Court has jurisdiction based on federal
question jurisdiction because this Complaint is based
on claims under the United States Constitution and
federal law, including 42 U.S.C. § 1983, as well as
pendent jurisdiction over the state law claims. In
addition, this Court has jurisdiction over all of the
claims because of diversity of citizenship and the fact
that the amount in controversy exceeds $75,000.
Therefore, there is jurisdiction under 28 U.S.C.
§§ 1331 and 1332. Venue is proper in this District
under 28 U.S.C. § 1391 because the claims arose in
this District, defendants are located in this District,
and the property at issue is located in this District.
FACTS
9. In 2009, plaintiffs purchased a tenancy-incommon interest (“TIC interest”) in real property in
the City and County of San Francisco commonly
known as 1170-1180 Green Street (the “Property”)
and entered into a Tenancy in Common Agreement
(“TICA”) with the other tenancy-in-common interest
owners of the Property. The Property contains six
dwelling units. The TIC interest purchased by
plaintiffs includes the right to exclusively occupy one
of the units in the Property, with the address of 1180
Green Street (the “Unit”). Plaintiffs temporarily
leased their Unit to a tenant in 2010, because they
reside out-of-state and did not intend to use the Unit
as their home until after they retire.
10. The TICA provides that plaintiffs agree to
take all steps necessary to convert the Property to
condominiums and to share the expenses of the
conversion to condominiums equally with the other co-

Appendix G-6
tenants. This clause commonly exists in San Francisco
TICAs because one of the main objectives of such
agreements is to convert to condominiums so the cotenants can gain title to their respective properties. At
the time that the TICA was adopted, the rules
governing condominium conversion did not require
lifetime leases and respected owners’ rights under
state and local law to obtain possession of their
property for purposes such as living in the
condominium themselves, as Plaintiffs intend to do
when they retire.
11. On June 28, 2013, the San Francisco Board of
Supervisors enacted Ordinance 117-13 (the
“Ordinance”), amending its Subdivision Code by
adding Section 1396.4 to permit certain buildings,
including the Property, to convert to condominiums.
The Board was fully aware that San Francisco TICAs
typically have a provision requiring participation in
condominium conversion and designed the Ordinance
to take advantage of that provision.
12. The Ordinance (Section 1396.4(g)(1) and (3))
requires as a condition of a condominium conversion,
that a written offer to enter into a lifetime lease with
non-owning tenants, in the form prescribed by the San
Francisco Department of Public Works (“DPW”), be
executed and recorded prior to the time of final map
approval for the condominium conversion.
13. The Ordinance (Section 1396.4(g)(3)) also
requires, as a condition of a condominium conversion,
that an agreement between the City and the property
owner(s) regarding the requirements of Section
1396.4, be executed and recorded prior to the time of
final map approval for the condominium conversion.

Appendix G-7
14. However,
the
Ordinance
(Section
1396.4(g)(3)(B)) does not require that a binding
lifetime lease agreement between the property
owner(s) and non-owning tenant be executed and
recorded as a condition of the condominium
conversion. Instead, the Ordinance (Section
1396.4(c)(3)(B)) provides that a non-owning tenant
may accept a lifetime lease offer after the
condominium conversion in which event a binding
lifetime lease must then be executed and recorded.
The Ordinance (Section 1396.4(b)(11)) provides that if
this requirement is violated after the condominium
conversion, the DPW “shall take such actions as are
available and within its authority to address the
violation”.
15. The Ordinance (Uncodified, Section 7) further
provides that if a lawsuit is filed against the City
challenging Section 1396.4(g), the condominium
conversion program allowed by Section 1396.4(g) will
be suspended for properties with units occupied by
non-owning tenants.
16. Given the cooperation clause in the TICA,
plaintiffs are subject to a legally binding obligation to
take all steps necessary to convert the Property to
condominiums or compensate their co-tenants for
potentially significant damages.
17. The Property owners applied to the DPW for
a condominium conversion pursuant to the Ordinance
on March 13, 2015. The Property owners submitted to
the DPW an offer of lifetime lease documents relating
to the Unit to the DPW on November 3, 2016 and an
agreement with the City on November 10, 2016 to
provide a lifetime lease of the Unit (the “Agreement”)
on or about November 10, 2016. The submission of

Appendix G-8
both of these documents was required as a condition
of the condominium conversion under the Ordinance.
18. The Agreement, contrary to California law,
purported to waive plaintiffs’ rights under the Ellis
Act and the Costa-Hawkins Act as a condition of the
condominium conversion under the Ordinance.
19. The Agreement also purports to fall within an
exception to the Ellis Act and the Costa-Hawkins Act
for certain programs promoting low-income housing.
The Ordinance’s lifetime lease provisions are not
focused on providing low-income housing and
therefore do not fall within this exception.
20. Under the Fifth Amendment, specific
performance of the Agreement and the offer of a
lifetime lease, cannot be enforced against plaintiffs
because they are not just and reasonable as to
plaintiffs and because plaintiffs have not received
adequate consideration.
21. The Agreement purports to provide
consideration in the form of a $4,000 rebate in the
conversion application fee and reduction of financing
costs. Plaintiffs have no financing costs for the Unit
and the $4,000 is grossly inadequate given the lost
property value of more than $500,000 that will be
caused by the transfer of the lifetime lease interest.
22. The condominium deeds for the Property,
including the Unit were recorded on March 25, 2017.
23. The plaintiffs’ tenant in the Unit submitted
an executed lifetime lease to the plaintiffs on or about
May 5, 2017.
24. On June 9, 2017 and June 13, 2017 plaintiffs
requested that the City not require them to execute

Appendix G-9
and record the lifetime lease under the Ordinance, or
in the alternative to compensate them for transferring
a lifetime lease interest in their property.
25. On June 12 and 13, 2017, the City stated that
failure to execute the lifetime lease would be a
violation of the Ordinance (which would subject the
plaintiffs to enforcement action) and that the City
would not compensate plaintiffs for transferring a
lifetime lease interest in their property.
26. Plaintiffs have not executed and recorded a
lifetime lease in connection with the Unit, but will do
so by the Ordinance’s deadline in March 2019 unless
the lifetime lease requirement is enjoined by this
court.
FIRST CAUSE OF ACTION
Taking of Private Property
for a Private Purpose—
As Applied Claim Under 42 U.S.C. § 1983
27. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 26 as
though fully set forth herein.
28. It is well established that, under the Public
Use Clause of the Fifth Amendment to the
Constitution, local governments may not take private
property for a private purpose.
29. The Ordinance requires plaintiffs to transfer
a lifetime lease interest in his Unit to a private person,
namely, his tenant, when plaintiffs’ co-tenants in the
Property exercise their right to convert the Property
to condominiums.

Appendix G-10
30. The Ordinance benefits private persons, not
the general public. The private benefit accruing to
tenants from the Ordinance’s lifetime lease provisions
far outweighs any conceivable incidental public
benefit.
31. The lifetime lease from plaintiffs to their
tenant in this case in intended to favor a particular
private party with only incidental or pretextual public
benefits and therefore violates the Public Use Clause.
32. The Ordinance was intended to benefit
private parties.
33. The Ordinance serves a private purpose and
use and therefore violates the Public Use Clause of the
Takings Clause of the Fifth Amendment.
34. Plaintiffs have been harmed in the amount of
the reduced market value of the Unit unless
Defendants are enjoined.
35. The City’s failures are a substantial factor, in
fact the only factor, in causing plaintiffs’ harm.
36. The Public Use Clause violation arising from
the Ordinance is occurring under color of state law
and violates 42 U.S.C. § 1983.
SECOND CAUSE OF ACTION
Unconstitutional Physical Taking
of Private Property—
As Applied Claim Under 42 U.S.C. § 1983
37. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 36 as
though fully set forth herein.

Appendix G-11
38. The Ordinance functions as a straight-out
governmental demand that plaintiffs give a lifetime
lease to their tenant. It forces plaintiffs to submit to
the physical occupation of their property.
39. Therefore, to the extent the Ordinance serves
a public purpose, it effects an unconstitutional
physical taking of plaintiffs’ property.
40. The Ordinance requirement that plaintiffs
enter into a lifetime lease with their tenant, takes
private property without providing a mechanism for
compensation and therefore violates the Public
Takings Clause.
41. Plaintiffs have been harmed in the amount of
the reduced market value of the Unit unless
Defendants are enjoined.
42. The City’s failures are a substantial factor, in
fact the only factor, in causing plaintiffs’ harm.
43. The violation of plaintiffs’ constitutional
rights effected by the Ordinance is occurring under
color of state law and violates 42 U.S.C. § 1983.
THIRD CAUSE OF ACTION
Unconstitutional Exaction/Condition
and Taking of Private Property—
As Applied Claim Under 42 U.S.C. § 1983
44. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 43 as
fully set forth herein.
45. The Ordinance obligates plaintiffs to transfer
a lifetime lease interest to their tenant under the
circumstances of the present case.

Appendix G-12
46. Real property is constitutionally protected
property.
47. If the City had simply demanded that
plaintiffs hand over a lifetime lease interest to their
tenant, it would be liable for a per se unconstitutional
physical taking of property.
48. Under Nollan v. California Coastal
Commission (Nollan), 483 U.S. 825 (1987), Dolan v.
City of Tigard (Dolan), 512 U.S. 374 (1994), and
Koontz v. St. Johns River Water Management District
(Koontz), 133 S. Ct. 2586 (2013), the government may
constitutionally exact property from property owners,
such as plaintiffs, as a condition of allowing the
Property owners to exercise a property right only if:
a. The exaction directly mitigates a public
impact directly arising from the property
owners’ exercise of their property right;
b. The exaction is roughly proportionate in
both nature and degree to the public
impact arising from the property owners’
exercise of the property right.
49. The Ordinance provides for lifetime leases for
existing tenants in certain buildings converting to
condominiums to protect the tenants form increased
rents. The differential between market rents and
regulated rents arises from two variables, neither of
which is attributable to plaintiff.
50. The first variable, the market rent, is caused
by entrenched market forces and structural decisions
made by the City long ago in the management of its
housing stock. The market effect of a potential
withdrawal of plaintiffs’ Unit, or even annual
withdrawals from the rental market of units in the

Appendix G-13
City because of condominium conversions, is
infinitesimally small. Such withdrawals do not cause
high market prices.
51. The regulated rent that plaintiffs’ tenant
currently enjoys is a creature of regulation that the
City imposes on the property owner as rent control. It
is the City’s rent control scheme that results in lowerthan-market rates, not plaintiffs’ actions.
52. As a result, the Ordinance does not share an
essential nexus with and is not roughly proportional
to any impact of the condominium conversion in this
case.
53. In requiring property owners such as
plaintiffs to offer a lifetime lease to their tenant as a
condition of them and their co-tenants exercising their
state law property right to convert the Property to
condominiums,
the
Ordinance
imposes
an
unconstitutional condition and unconstitutionally
exacts and takes private property.
54. The lifetime lease requirement imposed by
the Ordinance violates the constitutional principles
articulated in Nollan, Dolan, and Koontz.
55. Plaintiffs have been harmed in the amount of
the reduced market value of the Unit unless
Defendants are enjoined.
56. The City’s failures are a substantial factor, in
fact the only factor, in causing plaintiffs’ harm.
57. The unconstitutional exaction arising from
the Ordinance is occurring under color of state law
and violates 42 U.S.C. §1983.

Appendix G-14
FOURTH CAUSE OF ACTION
Unconstitutional Regulatory
Taking—As Applied
Claim Under 42 U.S.C. § 1983
58. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 57 as
though fully set forth herein.
59. If the Ordinance does not amount to a
physical taking or an unconstitutional exaction/
condition as applied to plaintiffs, it causes a
regulatory taking as applied to plaintiffs.
60. The Ordinance’s demand that plaintiffs
transfer a lifetime lease interest to their tenant has a
severe economic impact on plaintiffs.
61. The Ordinance interferes with the plaintiffs’
distinct expectations of using their Unit as their
home, including their reasonable expectation that
they would not be subject to a lifetime lease obligation
not in effect when they purchased their property. The
Ordinance substantially lessens the market value of
plaintiffs’ Unit.
62. The Ordinance requires plaintiffs to submit to
the physical occupation of their property, and has the
character of a taking as applied to plaintiffs.
63. The Ordinance causes a taking of plaintiffs’
property under Penn Central Transportation Co. v.
New York City, 438 U.S. 104, 124 (1978).
64. Plaintiffs have been harmed in the amount of
the reduced market value of the Unit unless
Defendants are enjoined.

Appendix G-15
65. The City’s failures are a substantial factor, in
fact the only factor, in causing plaintiffs’ harm.
66. The unconstitutional taking of plaintiffs’
property arising from the Ordinance is occurring
under color of state law and violates 42 U.S.C. § 1983.
FIFTH CAUSE OF ACTION
Unreasonable Seizure in Violation
of the Fourth Amendment—
As Applied Claim Under 42 U.S.C. § 1983
67. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 66 as
though fully set forth herein.
68. The Fourth Amendment applies in the civil
context.
69. Real property is protected from unreasonable
seizure by the Fourth Amendment.
70. The Ordinance meaningfully interferes with
plaintiffs’ possessory interests in their real property.
71. The City’s enforcement of the Ordinance’s
lifetime lease provisions unreasonably seizes
plaintiffs’ property.
72. Plaintiffs have been harmed in the amount of
the reduced market value of the Unit unless
Defendants are enjoined.
73. The City’s failures are a substantial factor, in
fact the only factor, in causing plaintiffs’ harm.
74. The unreasonable seizure arising from the
Ordinance is occurring under color of state law and
violates 42 U.S.C. § 1983.

Appendix G-16
SIXTH CAUSE OF ACTION
Violation of Due Process—As Applied
Claim Under 42 U.S.C. § 1983
75. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 74 as
though fully set forth herein.
76. Plaintiffs have a property right, under state
law, consistent with the Ellis Act and the CostaHawkins Act, to use and enjoy their Unit as their
home.
77. The Ordinance eviscerates plaintiffs’ vested
right to use their Unit as their home, under the
provisions of the Ellis Act and the Costa-Hawkins Act,
which were both enacted prior to the Ordinance’s
enactment.
78. The Ordinance requirement that plaintiffs
enter into a lifetime lease with their tenant under the
circumstances of this case, deprive plaintiffs of a
protected property right by arbitrary and
unreasonable action bearing no substantial relation to
the public health, safety, merits, or general welfare; or
interferes with rights implicit in the concept of
ordered liberty. As a result, the Ordinance as applied
to plaintiffs, violates the Due Process Clause.
79. Plaintiffs have been harmed in the amount of
the reduced market value of the Unit unless
Defendants are enjoined.
80. The City’s failures are a substantial factor, in
fact the only factor, in causing plaintiffs’ harm.

Appendix G-17
81. The violation of plaintiffs’ due process rights
occurring under the Ordinance arises under color of
state law and violates 42 U.S.C. § 1983.
SEVENTH CAUSE OF ACTION
Violation of Equal Protection – As Applied
Claim Under 42 U.S.C. § 1983
82. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 81 as
though fully set forth herein.
83. Plaintiffs are similarly situated with the
other tenants-in-common in the Property, which was
converted into a condominium. As tenants-incommon, plaintiffs have the right, consistent with the
Ellis Act and the Costa-Hawkins Act, to use the Unit
as their home. The Ordinance establishes a
classification providing that tenants-in-common with
existing tenants must offer and enter lifetime leases
with tenants, while those who do not have existing
tenants have no obligation to offer and enter into a
lifetime lease.
84. This classification injures a particular class of
private parties, with only incidental or pretextual
public justifications and therefore violates the Equal
Protection Clause.
85. The City was acting or purporting to act in the
performance of their official duties.
86. The City’s conduct violated plaintiffs’ rights to
equal protection of the law.
87. As a result, plaintiffs have been harmed in the
amount of the reduced market value of the Unit unless
Defendants are enjoined.

Appendix G-18
88. The City’s actions are a substantial factor, in
fact the only factor, in causing plaintiffs’ harm.
89. The violation of plaintiffs’ equal protection
rights occurring under the Ordinance arises under
color of state law and violates 42 U.S.C. § 1983.
EIGHTH CAUSE OF ACTION
Violation of the Ellis Act and the CostaHawkins Act –
As Applied Claim Under
California Government Code § 7060-7060.7,
California Civil Code § 1954.52
90. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 89 as
though fully set forth herein.
91. California Government Code Section 7060(a)
of the Ellis Act prohibits local governments from
compelling a property owner of residential real
property to offer or continue to offer their property for
lease.
92. Under California state law, a local
government violates the Ellis Act, when it burdens the
right to withdraw a rental unit from the rental market
with unreasonable and excessive conditions.
93. The Ordinance’s lifetime lease provisions
constitute
an
unreasonable,
excessive,
and
impermissible burden on the plaintiffs’ Ellis Act right
to withdraw their Unit from the rental market, and
effectively prevents them from withdrawing their
Unit, in violation of the Ellis Act.

Appendix G-19
94. California Civil Code § 1954.52 of the CostaHawkins Act, provides that a residential real property
owner may establish rental terms at the
commencement of a tenancy.
95. The Ordinance’s lifetime lease provision
prevent plaintiffs from establishing rental terms at
the commencement of the tenancy for the Unit after
the condominium conversion in violation of the CostaHawkins Act.
96. The Ordinance is not in accordance with
California law as applied to plaintiffs.
NINTH CAUSE OF ACTION
Violation of Privacy Right – As Applied
Claim Under Cal. Const. Art. I., § 1
97. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 96 as
though fully set forth herein.
98. Plaintiffs have an autonomy privacy
interest in excluding persons from their private
residence.
99. Plaintiffs have a reasonable expectation of
using their Unit, as their home, and excluding his
tenant by terminating the lease of their Unit in
accordance with the Ellis Act and the Costa-Hawkins
Act.
100. The Ordinance constitutes a serious
invasion of plaintiffs’ privacy by requiring them to
enter a lifetime lease with their tenant, thereby
preventing them from withdrawing their home from
the rental market and excluding their tenant from
their private residence.

Appendix G-20
101. The Ordinance prevents plaintiffs from
exercising their right to go out of the business of
renting in accordance with the Ellis Act and the
Costa-Hawkins Act. It also forces plaintiffs to share
their home with others who are unwelcome. As a
result, the Ordinance violates plaintiffs’ rights to
privacy under the California constitution, Art. 1, § 1,
with no strong countervailing interest since it employs
a means legally forbidden to the City by state law.
TENTH CAUSE OF ACTION
Declaratory Relief
102. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 101 as
though fully set forth herein.
103. Under the Fourth, Fifth and Fourteenth
Amendment to the United States Constitution,
plaintiffs have a federal right to be free from a taking
of their private property for a private purpose, and
from laws that take or seize property for a public
purpose, but on an unreasonable ground and without
any mechanism for compensation. Under the Due
Process Clause of the Fourteenth Amendment,
plaintiffs have a right to be free from an irrational and
illegitimate deprivation of their property. Under the
Equal Protection Clause, plaintiffs have a right to
equal protection of the law.
104. Under state common law, the Ellis Act and
the Costa-Hawkins Act, plaintiffs have a right to
withdraw their property from the rental market, and
to be free of any law that unreasonably and
impermissibly burdens their state law property right
so as to effectively force them to remain landlords.

Appendix G-21
105. Under the California constitution, plaintiffs
have an autonomy privacy interest in excluding
persons from their private residence.
106. Under California law, specific performance
of the Agreement and the offer of a lifetime lease,
cannot be enforced against plaintiffs because they are
not just and reasonable as to plaintiffs and because
plaintiffs have not received adequate consideration.
107. Defendants have enacted, and are charged
with enforcing, an Ordinance that retroactively and
immediately takes private property for a private
purpose and without a rational or a reasonable basis.
To the extent the Ordinance serves a public purpose,
it takes private property without providing a
mechanism for compensation.
108. There is a justiciable controversy in this
case as to whether the Ordinance violates the Fourth,
Fifth and Fourteenth Amendments, the California
constitution’s privacy right as applied to plaintiffs, the
Ellis Act and the Costa-Hawkins Act, and whether
specific performance of the Agreement and the offer of
lifetime lease may be enforced against plaintiffs.
109. A declaratory judgment as to whether the
Ordinance unconstitutionally takes property, seizes
property, deprives plaintiffs of their property,
deprives plaintiffs of equal protection of law, violates
their privacy rights under the California constitution,
and violates the Ellis Act and the Costa-Hawkins Act,
and whether specific performance of the Agreement
and the offer of a lifetime lease may be enforced
against plaintiffs, will clarify the legal relations
between plaintiffs and defendants, with respect to
enforcement of the Ordinance.

Appendix G-22
110. A declaratory judgment as to the
constitutionality and legality of the Ordinance will
give the parties relief from the uncertainty and
insecurity giving rise to this controversy.
ELEVENTH CAUSE OF ACTION
Injunctive Relief
111. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 110 as
though fully set forth herein.
112. Plaintiffs have no adequate remedy at law
to address the unlawful and unconstitutional taking
and deprivation of their property effected by the
Ordinance and under color of state law.
113. There is a substantial likelihood that
plaintiffs will succeed on the merits of their claims
that the Ordinance unconstitutionally takes private
property, unconstitutionally deprives plaintiffs of
their property, unconstitutionally deprives plaintiffs
of equal protection of the law, violates the Ellis Act
and violates the California constitution, the Ellis Act
and the Costa-Hawkins Act.
114. Plaintiffs are immediately required to
transfer a lifetime lease interest in their Unit to their
tenant or suffer defendants’ enforcement action. They
cannot avoid those events without judicial relief, and
will suffer irreparable injury absent a preliminary
injunction restraining defendants from enforcing the
Ordinance pending a final adjudication in this case.
115. Plaintiffs will suffer irreparable injury
absent a permanent injunction restraining defendants
from enforcing the Ordinance.

Appendix G-23
116. Plaintiffs’
injury—the
immediate,
unconstitutional, and illegal taking of property for the
private use of tenants—outweighs any harm the
injunction might cause defendants.
117. An injunction restraining defendants from
enforcing the confiscatory, unconstitutional and
illegal Ordinance as applied to plaintiffs will not
impair, but rather enhance, the public interest.
TWELFTH CAUSE OF ACTION
Writ of Mandate –
Cal. Civ. Proc. Code § 1085 –
or Other Appropriate Relief
118. Plaintiffs hereby realleges each and every
allegation contained in paragraphs 1 through 117 as
though fully set forth herein.
119. The Ordinance is invalid as applied to
plaintiffs because of the constitutional and state law
violations described above.
120. Plaintiffs have a beneficial interest in
insuring that the lifetime lease provisions of the
Ordinance are found invalid and void as applied to
them, and that respondents are ordered not to apply
them to them, so that their constitutional and state
law rights are not infringed or limited.
121. Plaintiffs do not have a plain, speedy or
adequate remedy in the ordinary course of law, and
therefore writ relief is necessary.

Appendix G-24
RELIEF SOUGHT
WHEREFORE, plaintiffs pray for judgment from
this court as follows:
1. Damages in excess of $500,000 resulting from
the diminished value of Plaintiffs’ property;
2. A declaratory judgment that the Ordinance’s
lifetime lease requirement violates the Public Use
Clause of the Fifth Amendment as applied to plaintiffs
and is therefore invalid and unenforceable against
plaintiffs;
3. A declaratory judgment that the Ordinance’s
lifetime lease requirement violates the Takings
Clause as applied to plaintiffs, and is therefore invalid
and unenforceable against plaintiffs;
4. A declaratory judgment that the Ordinance’s
lifetime lease requirement violates Nollan, Dolan, and
Koontz and the Unconstitutional Conditions doctrine
as applied to plaintiffs, and is therefore invalid and
unenforceable against plaintiffs;
5. A declaratory judgment that the Ordinance’s
lifetime lease requirement violates the Due Process
Clause of the Fourteenth Amendment as applied to
plaintiffs and is therefore invalid and unenforceable
against plaintiffs;
6. A declaratory judgment that the Ordinance’s
lifetime lease requirement violates the Fourth
Amendment as applied to plaintiffs and is therefore
invalid and unenforceable against plaintiffs;
7. A declaratory judgment that the Ordinance’s
lifetime lease requirement violates the Equal
Protection Clause as applied to plaintiffs and is
therefore invalid and unenforceable against plaintiffs;

Appendix G-25
8. A declaratory judgment that the Ordinance’s
lifetime lease requirement violates the Ellis Act and
the Costa-Hawkins Act as applied to plaintiffs, and is
therefore invalid and unenforceable against plaintiffs;
9. A declaratory judgment that the Ordinance’s
lifetime lease requirement violates Cal. Const. Art. 1.,
§ 1 as applied to plaintiffs, and is therefore invalid and
unenforceable against plaintiffs;
10. A declaratory judgment that specific
performance of the Agreement and the lifetime lease
requirement is not enforceable against plaintiffs;
11. A preliminary and permanent injunction
preventing defendants from enforcing or taking
further action to enforce the Ordinance’s lifetime lease
requirement as applied to plaintiffs;
12. For a writ of mandate or other appropriate
relief, including a mandatory injunction, directing and
commanding respondents to rescind the lifetime lease
provisions of the Ordinance;
13. For an alternative writ against respondents
commanding them to file a response to this petition
and to appear before this court on a date to be
determined and show cause why a writ of mandate
should not issue invalidating the lifetime lease
provisions of the Ordinance;
14. For an immediate stay of enforcement of the
lifetime lease provisions of the Ordinance;
15. For reasonable attorney’s fees and expert fees
for bringing and maintaining this action, including
under 42 U.S.C. § 1988;

Appendix G-26
16. For costs of suit and attorney’s fees pursuant
to the California Code of Civil Procedure § 1021.5 and
California Government Code § 800;
16. For such other and further relief that the
court deems just and proper under the circumstances
of this case.
DATED: June 26, 2017
Respectfully submitted,
/s/ Paul F. Utrecht
Paul F. Utrecht
Utrecht & Lenvin, LLP
109 Stevenson Street, 5th Floor
San Francisco, CA 94105
Telephone: (415) 357-0600
Email: putrecht@ullawfirm.com

Appendix H-1
City and County of San Francisco
San Francisco Public Works – Bureau of Street Use
and Mapping
_________________________________________________
Bruce R. Storrs, City and County Surveyor
1155 Market Street, 3rd Floor • San Francisco, CA
94103
Tel 415-554-5827 • Fax 415-554-5324
Subdivision.Mapping@sfpw.org
August 15, 2017
Re: Suspension of Portion of Expedited
Condominium Conversion Program
Due to Legal Challenge
To whom it may concern:
Please be advised that a recent legal challenge to
the City and County of San Francisco’s Expedited
Condominium Program (“ECP”) has required the City
and County of San Francisco (“City”) to suspend the
ECP with respect to certain ECP applications for
buildings with non-owning tenants. This letter
describes the scope and applicability of this
suspension. We encourage you to consult your legal
counsel regarding the applicability of the suspension
to your property and the status of any associated ECP
application.
On June 26, 2017, a complaint was filed in the
United States District Court to challenge provisions
in the ECP requiring property owners seeking to
convert a building into a condominium to offer any
non-purchasing, non-owning tenant a written offer to
enter into a “life time lease,” as set forth in the San

Appendix H-2
Francisco Subdivision Code. (See Attachment A [S.F.
Subd. § 1396.4(g)]; see also Attachment B [Complaint,
Pakdel v. City and County of San Francisco et al., Case
No.: 3:17-cv-03638 (U.S. District Court, N.D. Cal.)].)
According to Board of Supervisors Ordinance No. 11713 (effective July 28, 2013), the service of the
complaint upon the City on June 27, 2017, triggered
the suspension of the ECP with respect to buildings
with a unit occupied by a non-owning tenant. (See
Attachment C [Ordinance No. 117-13].) Please note
that ECP applications for buildings without any units
occupied by a non-owning tenant shall continue to be
accepted and processed.
The scope and effects of the suspension for various
categories of ECP applications are described below.
•

ECP Applications With Final and Effective
Tentative Parcel Map or Tentative Map
Approval On or Before June 27, 2017.
Applicants that obtained final and effective
Tentative Parcel Map or Tentative Map
approval on or before June 27, 2017 (for
buildings with or without non-owning
tenants) may proceed to final Parcel Map or
Final Subdivision Map approval and
recordation of such maps, subject to the
Public Works’ authority and discretion under
the Subdivision Code.

Appendix H-3
•

ECP Applications for Buildings Without NonOwning Tenants.
ECP applications for buildings without any
non-owning tenants may be accepted,
tentatively approved, and finally approved.

•

ECP Applications for Buildings With NonOwning Tenants (Submitted After June 27,
2017).
ECP applications submitted after June 27,
2017 for buildings with any non-owning
tenants will not be accepted or approved until
further notice from the City and County
Surveyor.

•

ECP Applications for Buildings With NonOwning Tenants (Without Tentative Parcel
Map or Tentative Map Approval as of June 27,
2017).
ECP applications for buildings with nonowning tenants that lack Tentative Parcel
Map or Tentative Map approval as of June 27,
2017 will be suspended until further notice
from the City and County Surveyor.

ECP applications that have not been approved, or
for which final and effective Tentative Parcel Maps or
Tentative Maps have not been approved, by June 27,
2017 shall remain suspended until final judgment (or
dismissal) in all courts with respect to the abovereferenced lawsuit or January 1, 2024, whichever
occurs first. During the suspension of a portion of the
ECP, any applicant may seek a refund of any
previously paid ECP application fee or condominium
conversion fee. Upon receiving an applicant’s request
for an application fee refund, Public Works and any
other reviewing City Departments will deduct costs

Appendix H-4
incurred by the City, based on time and materials
expended, and will refund any remaining portion of
the application fee.
If you have any questions, please do not hesitate
to contact my office at (415) 554-5827.
Sincerely,
s/ Bruce R. Storrs
Bruce R. Storrs, P.L.S.
City and County Surveyor
Enclosures:
Attachment A. Subdivision Code Section 1396.4(g)
Attachment B. Complaint, Pakdel v. City and County
of San Francisco et al., Case No.: 3:17-cv-03638 (U.S.
District Court, N.D. Cal.)
Attachment C. San Francisco Board of Supervisors
Ordinance No. 117-13

